<html>
<title> - [H.A.S.C. No. 115-11]Military Assessment of Nuclear Deterrence Requirements</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                   
                         [H.A.S.C. No. 115-11]
 
         MILITARY ASSESSMENT OF NUCLEAR DETERRENCE REQUIREMENTS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 8, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-683 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4f9f5f7b4">[email&#160;protected]</a> 




                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Hyten, Gen John E., USAF, Commander, U.S. Strategic Command......     5
Moran, ADM William F., USN, Vice Chief of Naval Operations.......     6
Selva, Gen Paul J., USAF, Vice Chairman, Joint Chiefs of Staff...     3
Wilson, Gen Stephen W., USAF, Vice Chief of Staff of the Air 
  Force..........................................................     7

                                APPENDIX

Prepared Statements:

    Hyten, Gen John E............................................    59
    Moran, ADM William F.........................................    68
    Selva, Gen Paul J............................................    52
    Smith, Hon. Adam.............................................    49
    Thornberry, Hon. William M. ``Mac''..........................    47
    Wilson, Gen Stephen W........................................    74

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    92
    Ms. Hanabusa.................................................   100
    Mr. Rogers...................................................    93
    Ms. Rosen....................................................   103
    Mr. Smith....................................................    91
    Ms. Speier...................................................    99
    Dr. Wenstrup.................................................   101
           
           
           
           MILITARY ASSESSMENT OF NUCLEAR DETERRENCE REQUIREMENTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 8, 2017.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    The Nation's strategic deterrent is the foundation upon 
which all our defense efforts are built. We simply cannot allow 
it to weaken or to crack, and yet we have neglected it for some 
time while other nations have not only invested in their 
nuclear systems but advanced their capability.
    Our strategic deterrent consists of the delivery systems, 
the three legs of the triad, and also the nuclear weapons 
themselves and the command and control over those systems.
    Our Minuteman III missiles were first fielded in 1970; our 
B-52 and B-2 bombers were first deployed in the 1950s and the 
1980s; our ballistic missile submarines began entering service 
in 1981 and, like the other legs of the triad, have a limited 
lifespan. The warheads themselves were largely designed and 
built in the 1970s or before, and the last time a warhead was 
fully tested was 1991.
    And so, for some years some of our most brilliant 
scientists and engineers have been working to keep these 
complex machines safe, secure, reliable, and credible without 
being able to test the entire weapon. They have done so in 
aging, neglected facilities with an aging workforce.
    Similarly, the command and control systems for our 
deterrent have not received the attention something so vital 
should have received. And meanwhile, our potential adversaries 
develop and field new delivery systems and they develop and 
field new weapons. And confidence in the U.S. strategic 
deterrent erodes.
    I am sure all of you have noticed articles over the last 
few days which reported that Europe was considering developing 
their own nuclear deterrent if they can no longer count on 
ours. The same may well be true in Asia, as well.
    Some say we cannot afford to update this part of our 
defenses, but depending on how one allocates the cost of the 
new bomber, operating, sustaining, and updating our strategic 
deterrent never requires more than 6 to 7 percent of our 
defense budget.
    As former Secretary of Defense Ash Carter and others have 
pointed out, this is affordable because it is our highest 
priority defense mission. Contemplating a world without a 
reliable strategic deterrent is a nightmare the modern world 
has never had to face, and I hope it never does.
    The committee has a number of events over the course of 
this week focusing on this topic of strategic deterrence. Today 
we are grateful to have several of our top military leaders to 
help us consider what our strategic deterrent means for 
American national security.
    Now, it may well be that members have some policy questions 
which uniformed military members are not able to answer. As you 
know we are--do not yet have people in place in the new 
administration to answer some of those questions. But they are 
here to talk about the military implications of our strategic 
deterrent.
    This hearing and the committee's broader series on nuclear 
deterrence will remind us, the American people, our allies, and 
potential adversaries that the U.S. strategic deterrent must 
always be credible and must always be ready.
    Before turning to our witnesses, I would yield to the 
ranking member for any comments that he would like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I appreciate you having 
this hearing. I appreciate the focus on our nuclear weapons 
deterrent for this week. I think it is incredibly important.
    And the chairman is correct, it is a series of aging 
systems that need to be replaced, and we need to think about 
what our long-term nuclear strategy is.
    The concern that I have, we absolutely have to have a 
nuclear deterrent because, unfortunately, there other 
countries--and hostile countries like Russia, North Korea--that 
have nuclear weapons. We have to have enough of a deterrent to 
make sure that they never use them because they know that it 
would lead to their own destruction because of the size of our 
deterrent.
    My questions as we go forward is whether or not we need as 
many nuclear weapons as we have had to present that deterrent.
    I have always pointed out that China has a very 
straightforward deterrent. They don't have anywhere near as 
many nuclear weapons as we do, but they have got enough. And if 
anybody challenges them, they have enough weapons to obliterate 
that person if they were to use nuclear weapons.
    So I hope that as we go forward and try to figure out what 
the new nuclear deterrent needs to look like we don't imagine 
that we have to have absolutely everything, that we really look 
at it. What is a credible deterrent force?
    We are coming down, but at the peak here a year or so ago--
it wasn't the peak--but we had well over 5,000 nuclear warheads 
and, you know, plenty of delivery systems. Is there a way that 
we can do this in a more cost-effective manner?
    And I say that because while I agree with the chairman that 
we have to have a nuclear deterrent, no question about it, we 
also have to have it fit within a budget because we have a lot 
of other priorities. When you look at what President Trump has 
said he wants, in terms of the size of the force--you know, the 
size of the Army, the size of the Marine Corps, the way we want 
to build out the Navy--at a certain point the numbers don't add 
up.
    So if there is a way to do this in a more cost-effective 
manner, I think that is something we should look at. I don't 
think we should simply say, ``Well, it is important so we are 
going to spend whatever it takes.'' I don't think we can afford 
that, and I don't think it is a credible deterrent.
    And I also want to make sure that our policy going forward 
continues to be just that, that it is a deterrent force against 
any other adversary using nuclear weapons, that we don't dive 
into some of the conversations that have happened in our 
military circles over the course of the last 30 years that 
somehow we can use, quote, ``tactical'' nuclear weapons on a 
first-use basis. I think we should maintain our policy of not 
using them first and using them as a credible deterrent. And I 
worry that some of the discussions have moved us in that 
direction.
    Now, I am aware that Russia has changed its tone on that 
and there is cause for worry about how they view the use of 
nuclear weapons. And that is the last point I will make: 
Credible deterrent is not just about how many nuclear weapons 
you have, but it is also about maintaining an open dialogue 
with as many of those adversaries as possible to make sure that 
they know about that credible deterrent and that discourages 
them.
    This is not just a military issue; it is diplomatic as 
well, to make sure that we keep open those channels so there 
are not misunderstandings about what our nuclear deterrent is 
and what we are prepared to do with it. We certainly don't want 
a country like Russia to start thinking that they can do a 
first-use nuclear weapon attack and get away with it.
    So with that, I look forward to testimony and the 
questions, and I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 49.]
    The Chairman. Let me welcome our distinguished witnesses 
today.
    We have the Vice Chairman of the Joint Chiefs of Staff, 
General Paul Selva; we have the Commander of U.S. Strategic 
Command, General John Hyten; Vice Chief of Naval Operations, 
Admiral Bill Moran; and Vice Chief of Staff of the U.S. Air 
Force, General Stephen Wilson.
    Without objection, your full written statements will be 
made part of the record. Again, thank each of you for being 
here.
    General Selva, the floor is yours for any comments you 
would like to make.

  STATEMENT OF GEN PAUL J. SELVA, USAF, VICE CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Selva. Thank you, Chairman Thornberry and Ranking 
Member Smith and members of the committee.
    Thanks for the opportunity to testify on the continuing 
relevance of our U.S. nuclear forces for our national security, 
the considerations that are influencing the size and shape of 
those forces, and the steps the joint force is taking to 
modernize or replace them. Given the gravity of these issues, I 
deeply appreciate the committee's interest, attention, and 
oversight.
    With the President's recently directed Nuclear Posture 
Review to assess the existing nuclear policy, and through many 
details regarding U.S. nuclear capabilities and employment 
concepts, these are all highly sensitive. Although they are, I 
look forward to your questions in this public forum and my 
ability to answer them as appropriate.
    As you know, the fundamental role of U.S. nuclear forces is 
to deter nuclear use against the United States, its allies, and 
partners. Simply put, nuclear weapons pose the only existential 
threat to the United States and there is no substitute for the 
prospect of a devastating nuclear response to deter that 
threat.
    Our nuclear forces play important roles as well, to include 
reducing the risk of nuclear proliferation and contributing to 
the deterrence of large-scale conventional war.
    These are longstanding objectives that have served U.S. 
national interests, but our ability to achieve them cannot be 
taken for granted. No one should doubt that our weapons, our 
delivery systems, the infrastructure that supports them, and 
the personnel who operate, monitor, and maintain them, are 
prepared to respond to any contingency.
    Our current challenge, however, is to maintain this high 
level of readiness and capability as long as the policy and 
strategy of this Nation depends in part on nuclear weapons for 
its security. This hearing comes at a critical moment in 
meeting that challenge.
    For more than two decades, the joint force has implemented 
a U.S. policy that calls for the reduction of the role of 
nuclear weapons and forces and our strategies and plans to 
decrease the number and types of those nuclear forces in our 
inventory. Yet a number of nations, including potential nuclear 
adversaries, have not followed our example.
    They instead are increasing their reliance on nuclear 
weapons, improving their nuclear capabilities, and in some 
cases expanding their nuclear arsenals.
    Our nuclear deterrent, as has already been stated, is 
nearing a crossroads. To date, we have preserved this deterrent 
by extending the lifespan of legacy nuclear forces and 
infrastructure, in many cases for decades beyond what was 
originally intended. But these systems will not remain viable 
forever.
    In fact, we are now at a point where we must concurrently 
recapitalize each component of our nuclear deterrent: the 
nuclear weapons themselves, the triad of strategic delivery 
platforms, the indications and warning systems that support our 
decision processes, the command-and-control networks that 
connect the President to our fielded forces, and our dual-
capable tactical aircraft that can be equipped with 
nonstrategic nuclear weapons.
    Our joint force's ability to preserve these capabilities 
beyond their intended lifespan is indeed a technical 
achievement. However, nuclear modernization can no longer be 
deferred.
    Any disruption in the current program of record for future 
acquisition plans will introduce the risk--significant risk to 
our deterrent. As a result of previous delays and deferrals, 
all well considered, we are currently depending on just-in-time 
modernization and replacement of many of the components of our 
nuclear triad.
    The cost of these efforts is substantial. Even at their 
peak, however, they will still represent less than 1 percent of 
anticipated Federal spending and approximately 6 percent of the 
defense budget.
    Moreover, there is no higher priority for the joint force 
than fielding all of the components of an effective nuclear 
deterrent, and we are emphasizing the nuclear mission over all 
other modernization programs when faced with that choice.
    Mr. Chairman, I appreciate accepting my written statement 
into the record and I look forward to your questions.
    [The prepared statement of General Selva can be found in 
the Appendix on page 52.]
    The Chairman. Thank you.
    General Hyten.

STATEMENT OF GEN JOHN E. HYTEN, USAF, COMMANDER, U.S. STRATEGIC 
                            COMMAND

    General Hyten. Good morning, Chairman Thornberry, Ranking 
Member Smith, members of the committee.
    On behalf of the men and women of United States Strategic 
Command [STRATCOM], I would like to echo the thanks of the vice 
chairman and express our appreciation for the committee's 
continued support for the nuclear mission. I look forward to 
build upon this relationship on our shared objective of 
protecting the Nation.
    Our mission at United States Strategic Command is to employ 
tailored nuclear, space, cyberspace, global strike, joint 
electronic warfare, missile defense, and intelligence 
capabilities. We deter aggression, decisively respond if 
deterrence fails, assure allies, shape adversary behavior, 
defeat terror, and define the force of the future.
    Let there be no doubt, we have a safe, secure, reliable 
nuclear enterprise today, and our nuclear forces are ready to 
meet any challenge.
    Nonetheless, much work is needed to make sure that this is 
the case as we look out into the coming decades. At STRATCOM 
peace is our profession, and one of the ways it is achieved is 
through strategic deterrence. That mission has been the bedrock 
of our national security for decades now. It is foundational.
    As such, I have three priorities in my command.
    My number one priority is to provide that strategic 
deterrence against any potential adversary. Our operations are 
ceaseless, deliberate, and enabled by a commitment to execute 
and modernize our C2 [command and control] and nuclear 
enterprise, which will enable us to meet the demands of the 
current and future strategic environment.
    My second priority is to account for a deterrence failure, 
in which this Nation will count on us for a decisive response. 
That response must defeat any adversary with our nuclear, 
space, cyberspace, missile defense, and other strategic 
capabilities.
    Neither strategic deterrence nor decisive response will 
function, however, without a resilient, equipped, trained, and 
combat-ready force, which is my final priority.
    Our fight is continuous, each and every day, across and 
around the globe. This requires our forces to have depth in 
capability and breadth in capacity.
    We cannot do it alone. We must constantly challenge 
ourselves to integrate with allies, partners, the 
interagencies, the Department, the Joint Staff, and other 
commands to ensure we capitalize on the unique capabilities 
that STRATCOM can bring to bear.
    Today's deterrent force remains safe, secure, reliable, and 
ready. However, the United States faces significant future 
challenges in sustaining the required capabilities to meet our 
enduring national security objectives and the extended 
deterrence commitments we have around the world.
    At a time when others continue to modernize and upgrade 
their nuclear forces, nearly all elements of the nuclear weapon 
stockpile, our delivery systems, our other critical 
infrastructure are operating well beyond their designed service 
life.
    Maintaining strategic deterrence, assurance, and escalation 
control capabilities requires a multifaceted long-term 
investment approach and a sustained commitment to maintain a 
credible nuclear deterrent. That nuclear deterrent is only as 
effective as the command and control that enables it to 
function. Therefore, our nuclear command and control 
communication systems, NC3, must be assured, reliable, and 
resilient across the full spectrum of conflict.
    Maintaining a credible deterrent requires sustainment and 
modernizations of key systems and capabilities throughout the 
architecture. The unpredictable challenges posed by today's 
multi-domain, multi-threat security environment make it 
increasingly important to optimize our legacy NC3 systems and 
leverage new technologies and capabilities. Through continuing 
funding for NC3 modernization we can ensure effective command 
and control for these forces well into the future.
    So I look forward to participating in the hearing today and 
the
administration's recently announced Nuclear Posture Review, 
which
will address many of the issues we will discuss.
    And I thank the committee again for your support. I look 
forward to your questions.
    [The prepared statement of General Hyten can be found in 
the Appendix on page 59.]
    The Chairman. Thank you, sir.
    Admiral Moran.

  STATEMENT OF ADM WILLIAM F. MORAN, USN, VICE CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Moran. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here this morning, and I echo the comments by 
both General Selva and General Hyten.
    And I am extremely proud to represent the men and women who 
man, operate, and maintain our strategic ballistic submarine 
force. And I look forward to your questions, thank you.
    [The prepared statement of Admiral Moran can be found in 
the Appendix on page 68.]
    The Chairman. Thank you.
    General Wilson.

 STATEMENT OF GEN STEPHEN W. WILSON, USAF, VICE CHIEF OF STAFF 
                        OF THE AIR FORCE

    General Wilson. Chairman, the same. I look forward to any 
questions from the members here today. I represent the United 
States Air Force, that provides two-thirds of the Nation's 
triad and three-fourths of the nuclear command and control 
communications. We stand ready to answer your questions.
    [The prepared statement of General Wilson can be found in 
the Appendix on page 74.]
    The Chairman. Well, thank you all.
    General Selva, yesterday I had the opportunity to tour Fort 
Campbell. It just reminds me that we have a lot of needs in 
this military, and--but did I hear you correctly, that there is 
no higher priority for the joint force than modernizing this 
part of our defense effort, our strategic deterrence?
    General Selva. Mr. Chairman, we in the joint force put our 
nuclear deterrent as the number one priority for modernization 
and recapitalization.
    I would make two quick points.
    One, we have made several--and I have referred to them as 
considered decisions over the last decade to defer some of the 
modernization of that force in order to address urgent needs 
while still maintaining a safe, reliable, and secure arsenal 
and delivery capability. But in making those decisions we have 
squeezed about all the life we can out of the systems we 
currently possess, and so that places an extra premium on a 
very deliberate long-term investment strategy to replace those 
systems as the existing systems age out of the inventory.
    And that is the reason we use the terminology we place it 
as our number one priority. There is an urgency in terms of 
time and in terms of stable long-term investment in order to be 
able to deliver this capability.
    The Chairman. Okay. Let me just ask one other question for 
either you or General Hyten to comment on.
    A couple weeks there--ago there was an article by Peter 
Huessy, who is president of GeoStrategic Analysis and guest 
lecturer at the U.S. Naval Academy. Among other things he 
writes in this letter is that early in the next decade, around 
2020 or 2021, Russia will have modernized close to 100 percent 
of its bombers, land-based missiles, and submarines.
    And China will, by the end of the next decade, have a fully 
modernized and expanded nuclear deterrent with mobile ICBMs 
[intercontinental ballistic missiles], a new missile-armed 
submarine, and long-range cruise missiles. New data now 
indicates that China can build a thousand new nuclear warheads 
quite rapidly. If the U.S. stays on its current projected 
course we will, at best, fully modernize our nuclear deterrent 
by the mid-2030s, some two decades hence.
    He then goes on to say we are at about 10 percent of a 
number of warheads where we were at one time and talks about 
Russia's tactical nuclear weapons.
    I am not asking you all to comment on the accuracy of 
information that may be, and probably is, classified. But I am 
asking relative to other nations, are they gaining in 
capability faster than we are? Where is the momentum here? 
Because if you--if he is in the ballpark of being right, that 
Russia will have modernized everything in a handful of years 
and at best we are two decades after that, it looks to me like 
we are behind in this race.
    General Selva. Chairman, thanks for the question.
    There are two dynamics that are at play here. One is Russia 
has been and continues to modernize their nuclear force, and 
China continues to modernize and grow their nuclear force. 
Those are facts. We don't have to go to intelligence to 
determine those.
    Having said that, the path that we have chosen to modernize 
and replace our existing nuclear arsenal, particularly the 
delivery systems, the indications and warning, and command and 
control, potentially puts us in a position not only to keep 
up--because we do have a qualitative advantage at this point--
but to capitalize on that advantage over time by continuing to 
have a triad that gives us a ballistic missile force that 
confounds Russian and Chinese targeting; a bomber force that is 
resilient enough and capable enough to penetrate enemy air 
defenses and respond to a nuclear attack; and a survivable 
portion of that triad, in the case of our strategic ballistic 
missile submarines, that gives us an ability to respond even if 
an adversary were to believe that they could execute a 
decapitating attack on our nuclear capability.
    So it is our strategy going forward to continue to 
modernize all three legs of the triad in order to continue to 
pose unsurvivable targeting challenges to adversaries that 
match us in number and very close to match us in quality to the 
delivery systems themselves.
    The Chairman. Okay. General Hyten, you want to add 
anything?
    General Hyten. Thank you, Mr. Chairman.
    I think the only thing I will add is that the key to a 
nuclear deterrent is safe, secure, reliable, and ready. It has 
to be able to work.
    Now, I think the vice chairman used the term ``just-in-time 
delivery,'' so if you look at all of the elements, each 
element, leg of the triad--our nuclear weapon system, our 
nuclear command--and you put them all on a table, they all 
deliver in just in time. And that is the risks that we have to 
make sure we monitor.
    Because the forces that we have, the forces that we are 
projected to have in our budget, will provide that nuclear 
deterrent without a doubt as long as we can modernize according 
to that schedule. If those schedules slip, though, that is when 
we put risk in the system.
    The Chairman. So back to what General Selva said at the 
beginning, we have no room for error here in getting this done 
because we have stretched things as far as we can.
    General Hyten. Yes, sir.
    The Chairman. Okay.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    For General Selva, I would like you to talk a little bit 
about the long-range standoff capability for which you 
advocate. Talk about where it is in your priorities, what it 
gains the United States. And I would also like you to address 
some of the concerns raised about unintended consequences and, 
you know, things that we may want to know in terms of the total 
cost of ownership of these strategically, in terms of what our 
adversaries or potential adversaries will interpret by that and 
what that may invite from them.
    General Selva. Thank you, sir.
    Several quick points. First of all, the long-range strike 
system is integral to extending the life and utility of our 
current bomber fleet, and it also increases the number of 
options for the use of our future bomber fleet.
    In this respect, the missile itself imposes a cost on any 
potential nuclear adversary because in addition to modernizing 
their nuclear arsenal, they also have to modernize their air 
defense arsenals. This is a strategy that we used in the 1980s 
when we widely deployed the air-launched cruise missiles into 
our B-52 inventory.
    We believe that over the course of time, to keep the B-52 
viable and buy us enough time to deploy the B-21, we have to 
have a long-range standoff weapon in our inventory that poses a 
challenge to increasingly sophisticated air defense systems in 
any one of the potential adversary nations that we might face. 
And so in that respect, the missile itself is an integral part 
of our modernization and replacement strategy.
    There are those who say that long-range standoff strike 
capabilities are inherently destabilizing. I disagree with that 
particular point for two reasons.
    One, it ignores the fact of deployment of those same 
systems by our adversaries. If you look at Russian deployments 
in their bomber force, they are largely composed of long-range 
standoff air-launched cruise missiles launched from what we 
would consider relatively old legacy bomber platforms. That is 
a challenge we are going to have to face and they are going to 
have to face.
    The second reason I think it is something we must introduce 
into our arsenal is if we don't have that capability in our 
arsenal, negotiating it out as a type and class of weapon over 
time becomes increasingly unlikely. So the places we have had 
success in negotiating types and classes of weapons out of 
adversary nuclear arsenals in our strategic arms reductions 
talks has been when we possess a similar capability that poses 
a tactical, operational, and strategic problems for our 
adversaries.
    So I am very concerned that the open debate about 
abandoning the system in the interest of cost actually puts us 
at a strategic disadvantage over the length of time.
    Mr. O'Rourke. So there is the argument on cost. You 
referenced the argument that it may destabilize or introduce 
some ambiguity that could be--that could turn out badly for 
both sides. And your response to that seems to be that our 
adversaries have this capability, and it wouldn't be 
responsible for us not to match that.
    Would you then say if our adversaries did not have this 
capability the United States would not seek to introduce it?
    General Selva. I think I would say that we should take that 
to the table and negotiate it in a bilateral, verifiable way so 
that we don't give up the option and the strategic leverage 
that we have in the existence of the system a priori.
    Mr. O'Rourke. Thank you. Mr. Chairman, I yield back.
    The Chairman. Couple of administrative notes.
    We have obviously a lot of member interest. We need to try 
to just stay within the 5 minutes.
    Secondly, if--when you all answer questions, if you would 
talk directly into the microphone. Sometimes it is hard to hear 
back here and that would help us.
    Mr. Wilson.
    Mr. Wilson of South Carolina. Thank you, Mr. Chairman.
    And thank you for being here today.
    I am very grateful to represent the Savannah River Site, 
where multiple generations have been dedicated to promoting 
peace through strength by building our nuclear weapons 
capability. In fact, the staff and workers there have made, I 
think, a positive difference, as General Hyten has cited, 
protecting the Nation.
    And so it really is very meaningful to me that you are here 
today and your success that we want to continue.
    General Selva, over the course of the past 8 years the 
military has contributed to detailed efforts to examine various 
options for changing the structure of the U.S. nuclear forces. 
We know from a GAO [Government Accountability Office] study and 
review of these efforts that the Obama administration examined 
big changes, like eliminating one or more of the legs of the 
triad. After these reviews, President Obama ultimately 
concluded to retain the triad and continue pursuing the nuclear 
modernization plans laid out by his administration.
    Did the Joint Chiefs of Staff and the services recommend 
and support the decision to retain the triad, and what was the 
reasoning?
    General Selva. Congressman, in advance of the consultations 
with President Obama's administration on the status and 
potential options for how to manage the triad the Joint Chiefs 
did meet. We did affirm the necessity to maintain a triad, 
largely for the reasons that I have already pointed out about 
managing the strategic risk not only with Russia as a potential 
adversary, but China as a potential nuclear adversary, with an 
increasingly aggressive North Korea and his pursuit of nuclear 
weapons, and based on the fact of JCPOA [Joint Comprehensive 
Plan of Action], that we have forestalled an Iranian entry into 
the nuclear arena but have not completely stopped it for the 
future.
    So based on the collection of potential threats and 
adversaries that exist in the world, the Joint Chiefs 
affirmed--pardon me--the necessity to maintain a triad and to 
modernize the weapon systems, the indications of warning, and 
the command and control associated with that triad.
    Mr. Wilson of South Carolina. And I am grateful for 
President Obama's decision, although you referenced Iran, and I 
am so concerned about the continuing development of missile 
capability, ICBMs. Sadly, that can only be used for the purpose 
of, in my view, delivery of a nuclear weapon and a threat to 
the American people.
    General Hyten, we sometimes hear arguments that the triad 
has too much redundancy, that it will not intentionally--it is 
not intentionally designed, it is more by accident and grew up 
into what it is today. Do you believe we should retain and 
modernize the full triad? And additionally, what reasoning do 
you have on this?
    General Hyten. So, I believe we should retain and modernize 
the triad, Congressman, absolutely. I believe that is 
fundamental to deterrence.
    In order to deter you have to have a capability that 
provides the adversary a calculus that he looks at and decides 
that his options will fail. If the adversary has capabilities 
to operate from the sea, from the land, from the air, then we 
have to be able to deter in all those elements. That is how the 
triad was developed and that is how we need to go.
    And I will just end with the fundamental statement that I 
am fundamentally opposed to unilateral disarmament because that 
fundamentally changes the deterrent equation. In deterrence, 
parity--rough parity--is actually a good thing, not a bad 
thing, because that causes the adversary to pause when they are 
about to make a decision.
    Mr. Wilson of South Carolina. And I agree with your 
analysis just there of peace through strength. Thank you very 
much.
    And, both General Selva and General Hyten, what are your 
view of the concerns that we are launching a new nuclear arms 
race with Russia by pursuing the nuclear modernization program?
    General Selva. Congressman, I would suggest that we are not 
entering an arms race because we bilaterally have a verifiable 
inspection regime for the weapons that are deployed; we have 
capped the number of weapons that are available. What we are 
doing in this modernization program--and I very bluntly try to 
call it a replacement program--we have to replace the systems 
that exist. We should replace them with systems that are 
viable.
    The Russians understand that is what we are doing. They 
know it is a path we are on.
    So we have a bilateral, mutually verifiable treaty cap at 
this point in our relationship, and I think that keeps us from 
entering an arms race.
    General Hyten. Congressman, I agree with the vice chairman. 
We have numbers of our force: 400 ICBMs, 240 SLBMs [submarine-
launched ballistic missiles], 60 bombers, 1,550 accountable 
warheads. Those are defined numbers that we have to meet.
    So we are not racing to increase that number; we are not 
racing to beat that number. We are working hard to make sure we 
can maintain that.
    Mr. Wilson of South Carolina. Thank you very much.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman. Gentlemen, thank you 
very much for joining us here today.
    General, I was wondering--General Selva, I was wondering if 
you could talk about the Russian compliance with the 
Intermediate [Range] Nuclear Forces Treaty. There have been 
some concerns expressed in the press that they have not been 
complying. I would like to know what your view is on that 
situation.
    General Selva. We believe that the Russians have deployed--
pardon me--a land-based cruise missile that violates the spirit 
and intent of the Intermediate Nuclear Forces Treaty. We have 
conferred with the Russians in a bilateral consultation 
committee that exists underneath the New START [Strategic Arms 
Reduction] Treaty in order to confront them on that deployment, 
and we will continue to do so.
    The system itself presents a risk to most of our facilities 
in Europe, and we believe that the Russians have deliberately 
deployed it in order to pose a threat to NATO [North Atlantic 
Treaty Organization] and to facilities within the NATO area of 
responsibility.
    Mr. Moulton. If those discussions do not bear fruit, what 
is the next step? What is the administration's plan to deal 
with what seems like a flagrant violation of a treaty?
    General Selva. We have been asked to incorporate a set of 
options into the Nuclear Posture Review, so it would be 
premature for me to comment on what the potential options might 
be for the administration to respond.
    Mr. Moulton. Okay. It seems that this is part of a broader 
move of Russian aggression throughout Europe and against NATO. 
One of things that concerns me is that as Russia continues to 
threaten the Baltic States, may not be deterred from further 
action in places like Ukraine, that a conventional conflict 
could escalate to the point where it becomes nuclear.
    What is the U.S. doing to make sure that that doesn't 
happen, that Russia never crosses a threshold into using 
tactical nuclear weapons in a theater like Eastern Europe?
    General Selva. Congressman, never is a fairly absolute 
word, but our strategy in Europe is to maintain an inventory of 
nonstrategic nuclear weapons that are in the hands of both the 
United States and our NATO allies. They are operated on a 
category of aircraft we call dual-capable aircraft, where the 
aircraft are designed to actually accommodate the use of 
nuclear weapons.
    Those aircraft are distributed in a very deliberate 
readiness process between U.S. forces and our NATO allies, and 
we believe that that capability poses a significant risk to 
Russia and, therefore, it helps deter Russia from employing 
nuclear weapons on the European continent.
    Mr. Moulton. General, I would hazard to say that using the 
word ``never'' is not going too far when we are talking about 
the existential threat of----
    General Selva. No, sir, I am not----
    Mr. Moulton [continuing]. Nuclear weapons.
    General Selva [continuing]. Not suggesting it is too far. 
It is just such an absolute word I avoid it.
    Mr. Moulton. Fair enough. What kinds of doctrine changes 
are we contemplating in the face of what appear to be doctrine 
changes on the side of the Soviet--of the Russians?
    General Selva. Sir, we have begun an investigation of a 
series of potential strategy changes, many of which will have 
to be incorporated into the Nuclear Posture Review. As you 
recall, in the prior administration we looked to limit the 
potential use and utility of nuclear weapons in any scenario 
with an eye towards reducing the numbers to a much smaller 
inventory than we have today--a noble goal, to be sure.
    One of the things that happened in the context of that 
conversation is our adversaries started to articulate a 
doctrine of escalation to deescalate. And we have to account 
for in our nuclear doctrine what that means and what the ladder 
of strategic stability implies as we look at an adversary that 
expresses in their rhetoric a willingness to use nuclear 
weapons where they may or may not actually be exercising the 
operational capability to do so.
    So we are going to have to get to the bottom of what that 
means. We have done several war games and exercises over the 
last couple of years. We are not done with that process but 
this will be part of the Nuclear Posture Review.
    Mr. Moulton. General, I think you will find bipartisan 
support in this committee for making sure that we have an 
effective nuclear deterrent. But at the end of the day, I think 
you would also find bipartisan support for working towards 
strategic arms reductions.
    What is the most effective thing we can do today to head 
down that path, because obviously those talks seem to be 
stalled?
    General Selva. Sir, I think there are two things we can do 
from a military perspective.
    The first is maintain a safe, secure, reliable, and ready 
nuclear arsenal and project to the public and to our 
adversaries that we take this incredibly seriously. It is why 
it is our top priority.
    The second is also emphasize that the existence of that 
arsenal need not be absolute, that we are open to negotiations 
but they must be bilateral, they must be verifiable, and we 
have to go into this completely open to the idea that there are 
now more than just two nuclear players at a strategic level in 
the world. We must accommodate in our bilateral relationships 
with any adversary the existence of other adversaries.
    And so the inventory today grows. Russia and China present 
strategic threats to the United States if they chose to use 
their weapons, and our deterrent must be able to address both. 
If new nuclear adversaries enter the population of potential 
threats, we need to be ready to address them.
    I think if we can balance those two things in our 
discussion both publicly and privately of what the implications 
are for maintenance of an arsenal and reduction of that arsenal 
in a measured and prudent way, we can be successful.
    Mr. Moulton. Thank you, General. Thank you, Mr. Chairman.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Gentlemen, I 
appreciate you talking today to us about what you have 
described, General Selva, as the top priority.
    General Selva and General Hyten, I would like to talk to 
you for a moment about the nuclear command and control system 
component of that top priority. The PowerPoint we have been 
given describes the command and control as enabling national 
command conferencing, attack detection, strike planning, and 
dissemination of execution messages--all incredibly important. 
It also allows the President to have uninterrupted connectivity 
with nuclear forces.
    Admiral Moran says maintaining a credible nuclear deterrent 
for the long term requires recapitalization of these key 
systems, so we know that it is essential for our concept of a 
credible deterrent.
    General Hyten, in your written testimony you say that our 
command and control system is increasingly unreliable and in 
desperate need of modernization. ``Unreliable'' and 
``desperate'' are words that are in contrast to ``credible.''
    General Selva, you say that the ability to preserve these 
capabilities beyond their intended lifespan is a technical 
achievement, acknowledging they are already past their 
lifespan. However, nuclear modernization can no longer be 
deferred.
    Well, as we talk about the issue of deterrence I would like 
for you to describe to me some of the risks that we are facing 
by doing this, because it is not just that these might not work 
or that we can't respond if we are attacked. Doesn't it go 
right to the calculation of our adversaries as to whether or 
not we have a credible deterrent, as we have here what is an 
open hearing and we are hearing words such as ``unreliable'' 
and ``desperate''? And we also don't have an ability to fix 
this tomorrow, right?
    General Selva, General Hyten, could you describe the risk 
that we are taking and the situation we are in?
    General Hyten. Congressman, I will go first.
    The nuclear command and control and communications, NC3, is 
my biggest concern when I look out towards the future. When I 
put all the modernization plans on the table I see the 
modernization plan for the submarine, for the bomber, for the 
long-range standoff munition, for the GBSD [ground-based 
strategic deterrent], I see--the new missile--I see all those 
coming together.
    When I look out at the NC3, although everything we have 
today works very effectively, but it is very resilient, robust, 
and ancient. Ancient is the concern I have because an ancient 
command and control system in today's world is very, very hard 
to recapitalize.
    Mr. Turner. And, General, doesn't that mean that our 
adversaries know that and if they are taking a calculation as 
to whether or not we can credibly respond, don't they look at 
those issues as to our decaying infrastructure?
    General Hyten. I am sure they do. I am sure they look at 
those. We look at those very hard.
    That is why it is my number one priority now inside the 
modernization piece to make sure we have a plan to modernize 
the nuclear command and control capability.
    Mr. Turner. In order to fix this--again, we can't just fix 
it tomorrow. You can't go down to Home Depot and buy a bunch of 
stuff and just plug it in and make this thing work. Let's talk 
about some of those components on the entire system.
    Could you speak about the ITW/AA system, and what if it 
doesn't do its job of providing an early warning of attack?
    General Hyten. So the integrated tactical warning and 
attack assessment system, ITW/AA, is the--it is the integrated 
architecture that basically goes all the way from indications 
and warning from our space-based constellations to our ground-
based radars into the command and control system and provides 
the picture of any threat that would come at the United States 
of America.
    So it is exercised every time there is a launch on the 
planet, as recently as last Sunday night. We were up most of 
the night watching the North Korean launches of Scuds. Even 
though that did not present a threat to North America, we still 
exercised those same pieces.
    The satellites see the threats. If it comes into the radar 
fans the radars will see it, and then the command and control 
system works.
    But as we look at that structure and we look at it 10 years 
from now, when you have a 20th-century architecture that you 
are trying to maintain 10 years from now, 10 years from now is 
when my concern really is. It is not 2035 in the NC3 
architecture. It is much more fragile than that. That is why we 
have to take a hard look----
    Mr. Turner. If it doesn't work or if there are deficiencies 
in it, does our adversaries, again, understand that that 
relates to our ability to respond?
    General Hyten. Congressman it works. It works every time we 
pull it together.
    My concern is that we are creating fragility in the future, 
and that fragility in the future has to be addressed and it has 
to be addressed in the near term across the enterprise--that is 
in the Navy and in the Air Force.
    Mr. Turner. And can you talk about the assent system? And 
there are delays in this system that apparently we were not 
informed of, and how do we address that?
    General Selva. Congressman, all of the national command and 
control leadership communication systems have now been brought, 
with the help of this committee and the Senate Armed Services 
Committee, under the oversight of a single council in the 
Pentagon. I co-chair that council with the director of 
acquisition, technology, and logistics. It is----
    Mr. Turner. Do you believe that the services and DISA 
[Defense Information Systems Agency] should have to provide 
everything they know about delays in the system?
    General Selva. Yes, sir. And that is precisely what that 
oversight council does is it pulls all of the community of 
interest together so that we don't run the risk of looking at 
the process in ``eaches''; we actually look at it as an entire 
end-to-end set of programs that are critical to providing 
nuclear command and control and connectivity to our most senior 
leadership.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony today, and most especially of your 
service to the Nation.
    Gentlemen, as you know, our nuclear enterprise is aging, 
and we have spoken about that several times this morning, 
obviously. And like the previous member, I had the privilege of 
chairing the Strategic Forces Subcommittee a few Congresses 
ago, and so I was able to do a deep dive on this aging nuclear 
enterprise.
    One of the things that I certainly find concerning is the 
work that our adversaries are doing in their nuclear programs, 
particularly China and Russia. And they are designing new 
delivery systems and warheads.
    And I wanted to touch on a, you know, somewhat sensitive 
but important topic, and that is our nuclear warheads that we 
have in our arsenal.
    I know we are going through the refurbishment program. I 
mean some of the components of our warheads don't even exist 
anymore. It is not easy to replace them. And some of the 
materials are not easily obtainable.
    So the question is obviously I--we are not interested in at 
all setting off an arms race, but does it make sense to 
continue to try to refurbish and make things work, or does it 
make more sense to design a more modern weapon?
    And the question, if so, what does that do in terms of does 
that endanger us of setting off an arms race? And could we 
design a new warhead without testing?
    General Selva. Sir, one of the first priorities I engaged 
in when I took this job was to partner with Frank Klotz at the 
National Nuclear Security Agency, which is the arm of DOE 
[Department of Energy] that builds and does the actual physical 
maintenance of the warheads themselves. I took a trip to both 
Livermore and Sandia and talked to the scientists who are doing 
the work of design and prototyping of those--I will use the 
words ``modernized repurposed warheads.''
    And their belief, and all of the information that they 
could present to me, is that there is sufficient life and 
resiliency left in the warheads that we currently possess that 
we can very deliberately modernize them with new technologies 
without building new warheads and essentially replicate the 
capability we have today in a safer, more secure, more 
reliable, and more resilient set of weapons without going into 
the detail of what that strategy looks like.
    So the scientists themselves--and I spent a day at each 
location quizzing them and having them demonstrate their 
beliefs, not just in showing me their conclusions but actually 
showing me the math--they are convinced, as am I, that the path 
we are on is actually a reasonable path into the near future.
    That doesn't ignore the fact that sometime in the future of 
these weapon systems we are actually going to have to replace 
the core components that still have lifetime left in them.
    General Hyten. And, Congressman, I will just add on that 
tomorrow we will have a classified session with this committee 
where we will actually bring in Frank Klotz and Charlie 
McMillan and myself, and we will sit down and we will walk 
through that entire nuclear weapons piece with you, as well as 
the threat information that we can't share in this hearing.
    Mr. Langevin. Okay, thank you.
    Admiral Moran, being from Rhode Island and as co-chair of 
the Submarine Caucus with my good friends Congressman Courtney 
and Congressman Wittman, I understand the critical importance 
placed on our SSBN force in conjunction with our nuclear 
deterrence. Showing as the most survivable leg of the triad, 
the maritime force shoulders a significant burden and the Ohio-
class submarines has primarily borne it.
    The existing modernization projects that the Columbia-class 
submarines won't enter service until 2029 and that the Navy 
will only operate 10 SSBNs during the 2030s, reaching a full 
fleet of 12 SSBNs in 2041.
    So, Admiral, how will we sustain our nuclear deterrence 
requirements while transitioning to the Columbia-class 
submarine, and what can Congress do to ensure the future 
requirements of the Navy's nuclear submarine fleet are met?
    Admiral Moran. Congressman, thanks for the question. We 
have worked out the requirements in the 2030s with STRATCOM and 
the joint force. Clearly, what will be done with re-cores of 
Ohio here in the not too distant future, so that is a major 
draw on our total force structure, if you will.
    Then, as you indicated, in the late 2020s and early 2030s 
we start replacing Ohio with Columbia class. So we think we can 
accept that and we are going to have to maintain a ready status 
of fewer submarines during the 2030s, but working that through 
STRATCOM we believe we have enough to satisfy the requirement.
    Mr. Langevin. Thank you.
    General Selva, for you I wanted to ask, what are the risks 
of launch on warning and what can be done to increase 
Presidential decision-making time in the midst of a crisis?
    General Selva. Thank you, Congressman.
    As you are aware, the launch-on-warning criteria basically 
are driven by physics. The amount of time the President has to 
make a decision is based on when we can detect a launch, what 
it takes to physically characterize the launch, and the entire 
scenario is predicated on an adversary that believes they can 
attack us and decapitate our intercontinental ballistic missile 
fleet without us responding.
    And so the only ways physically to buy more time for the 
President to make that decision are to increase the fidelity 
and the distribution of our radar and on-orbit detection 
systems.
    But even those criteria face the facts of physics, which 
say while you may detect the launch, it--the weapon itself must 
cross through some sort of radar detection capability in order 
to characterize the launch as an attack on the United States.
    The short answer to your question is, I don't believe the 
physics let us give him much more time. And so what we owe the 
President is a set of options ahead of time that he or she can 
consider and determine whether or not they are willing to take 
that shot, because they are not going to have the benefit of a 
long period of time to make that decision.
    Mr. Langevin. Thank you, General.
    And in addition to that, obviously I have always been a big 
believer that good intelligence is always the very pointy tip 
of the spear, and the better our intelligence is the more 
standoff warning time we may have, as well. It adds to what we 
already have in place.
    So, I want to be respectful of other people's time, so with 
that I will yield back.
    The Chairman. Thank the gentleman.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Thank the witnesses 
for being here, for your service to our country.
    In April of 2016 the State Department released its most 
recent Arms Control Compliance Report, and it found in there 
that Russia remains in violation of the Intermediate-Range 
Nuclear Forces Treaty, or the INF Treaty.
    General Selva, in your professional military view, do you 
believe that Russia intends to return to compliance with this 
treaty?
    General Selva. Congressman, I don't have enough information 
on their intent to conclude other than that they do not intend 
to return to compliance absent some pressure from the 
international community and the United States, as a cosigner of 
the same agreement. There is no trajectory in what they are 
doing that would indicate otherwise.
    Mr. Rogers. And did I hear you say earlier in this hearing 
that Russia is now deployed?
    General Selva. Yes, sir.
    Mr. Rogers. What is the military's assessment of the 
impacts of this violation?
    General Selva. Sir, our assessment of the impact is that it 
more threatens NATO and infrastructure within the European 
continent than any other part of--area of the world that we 
have national interests in or alliance interests in.
    And our intent is to factor that into the NPR [Nuclear 
Posture Review] and look for leverage points to attempt to get 
the Russians to come back into compliance. I don't know what 
those points are at this point in time.
    Mr. Rogers. Witnesses from the Office of the Under 
Secretary of Defense for Policy testified several times in the 
past several years that the U.S. was considering various 
responses, including active defense; two, counterforce; three, 
countervailing capabilities. What actions have been taken in 
each of these three to implement such capabilities?
    General Selva. Sir, I would like to give you a more fulsome 
answer in a classified environment, but basically it is the 
assessment of where the Russians are deploying and how they are 
deploying that system that provide for the latter option, which 
is a countervalue or counterforce option against the actual 
weapon system itself. But the balance of the capabilities I 
would have to talk to you about in a classified environment.
    Mr. Rogers. Okay.
    General Hyten and General Selva, would you please provide 
this committee before the end of the month your recommendation 
on military options based on your best professional military 
advice for options that policy makers like this committee can 
choose to support?
    General Selva. Yes, sir.
    Mr. Rogers. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask General--all the generals that are here 
today about the F-35's Block 4 dual-capability platform, and 
with it being a--strictly a tactical complement to the 
strategic bomber fleet. And I was wondering, in your opinion, 
can this platform actually supplant some functions that the 
bomber fleet performs in the future, in conjunction with the 
new B-21, as our strategy evolves?
    General Selva. Congressman, I think it is possible they can 
work together. But given the relatively small numbers of dual-
capable aircraft and the fact of that commitment only to our 
NATO allies, that we have not extended our dual-capable 
aircraft outside of the European area of responsibility in more 
than a decade, our capacity to provide for an extended nuclear 
deterrent umbrella over other allies, partners, and friends 
principally comes from our capacity to deploy weapons from the 
United States to those locations.
    So I am cautious that we not build the connotation that 
because the airplanes can operate together they would 
necessarily at a strategic level be built into the same plan.
    Mr. Veasey. Thank you. Anyone else? Okay.
    My next question is to General Selva and Hyten. Each 
element of the nuclear triad requires significant investment 
and modernization. Of the three, how would you rank order with 
them, in terms of priority, to undergo modernization efforts?
    General Hyten. I will take that first, General. Thank you, 
Vice Chairman.
    It is choosing among your children. It is impossible. It 
depends on your perspective.
    You can come at from a perspective of which is the oldest. 
Which is the oldest? You probably go to the bomber. The bomber 
is the oldest. We need a modernized, penetrating bomber.
    But then you look at the ICBM and the ICBM has a problem. 
You look at the submarine, the submarine--at some point in time 
the Ohio class will not be able to go under the surface of the 
water, and a submarine that can't go under the surface of the 
water does not have a significant use to the United States of 
America.
    So as you walk through each of those you realize that under 
the current construct of what deterrence is, I can't give up 
any element of the triad. And that is why all three have to be 
modernized and all three have to be monitored as you go through 
that.
    I think it is important that we look at it as each of these 
programs goes on and we make prudent decisions concerning where 
we are spending our money to make sure that they deliver in 
time, but I can't make a determination of which one today would 
be the most important.
    General Selva. Congressman, the way I would phrase it is 
not unlike my colleague, and that is: If you believe the triad 
is important, if you believe the existence of all three legs of 
the triad are necessary in order to deter an adversary from 
openly attacking the United States and denying them the 
capacity to be able to do that, then you have to put all three 
of them as a--as priorities and not pick and choose among the 
three.
    There are schedule realities within the triad that drive us 
to pay particular attention to the modernization of each leg. 
The Ohio-class submarine is on a design and construction 
schedule that has almost no slack in it because of the dynamic 
that was just pointed out a few moments ago about the Ohio 
class reaching end of life and Columbia class having to be 
ready to replace her. And so that puts a premium on that design 
and construction schedule.
    The B-52 fleet, as the chairman pointed out, that is the 
bulk of our air leg of the triad; that fleet was built in the 
1950s and 1960s. The weapons that they employ, the air-launched 
cruise missile and the gravity bombs that they carry, were 
designed and built in the 1970s with a 10-year lifespan. We 
know today they remain relevant, but we can't continue to 
maintain them.
    A decade from now those weapons will not be able to 
penetrate Russian air defenses. And therefore, there is an 
urgency to their replacement.
    And finally, the Minuteman III missile system was put into 
silos in the 1970s with an expected 10-year lifespan. We have 
extended its lifespan and believe we can continue to do so for 
about another decade.
    When we did the analysis of alternatives on what would be 
best--extending life again or replacing--the cost of extending 
life actually almost matches the cost of replacement. So that 
means all three of them must be addressed at the same time.
    What we have to do, and what we owe you, is our considered 
judgment on where we put resources to make sure that all three 
of those replacement programs stay on a schedule for design and 
deployment that matches the time span that the weapons 
themselves will age out of the fleet.
    Mr. Veasey. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Franks.
    Mr. Franks. Well thank you, Mr. Chairman. And thank all of 
you gentlemen for your lifetime commitment to human freedom.
    Let me begin by suggesting that the comments you have made 
here today as to the importance of our nuclear deterrent, I so 
deeply agree with, given that I think it has kept us out of 
involvement in a world war for 70 years. I mean, it is almost 
impossible to overstate its significance.
    And with that, I will probably go ahead and bias my 
question deeply and suggest to you that I think that the long-
range standoff capability is one of the strongest--one of the 
strong components for rationale and for leverage to keep the 
bomber leg of our triad.
    And I know that the argument is made that somehow this is a 
destabilizing weapon--and, General Selva, you had mentioned 
earlier, and I thought you addressed it well, but I would like 
to kind of expand on it slightly because I think that this is 
one of those things that is in play.
    And with that, you know, I have asked the Air Force many 
times now how many times--and, General Wilson, this is 
addressed to you too, sir, and General Hyten--how many times 
the ALCMs [air-launched cruise missiles], you know, has been 
fired and how many times that--in combat, and how many times it 
has been taken as a potential nuclear strike. And, of course, 
the answer was none.
    And if, indeed, the LRSO [long-range standoff weapon] is 
destabilizing then so are dual-capable bombers. I mean, all of 
these things just don't make sense in my mind.
    And so the questions I have for you--first--I am going to 
make a series of them because I don't want to run out of time 
here--what do you think of LRSO? Do you support the program? 
What is the military requirement for this program? Do you think 
it is destabilizing?
    And, General Selva, I will point over to you specifically: 
Do the Joints Chiefs of Staff support the program? And do you 
believe LRSO is a good part of cost-imposing strategy on our 
adversaries?
    That is a lot of questions. I am sorry to throw it all at 
the same time.
    General Selva. Congressman, the Joint Chiefs did consider 
the commitment to the LRSO and the development program when we 
looked at our recommendation to President Obama last year on 
whether or not to adjust the modernization and recapitalization 
program and committed to the fielding and deployment of the 
LRSO. We do believe that it is a significant tool for imposing 
costs on our potential adversaries.
    The requirements state in short that it be able to fly a 
specific range, which I won't talk about in this forum; that it 
be able to penetrate the sophisticated air defenses of an 
opponent; and deliver a nuclear weapon. And those are the three 
baseline requirements for the system that I can talk about in 
this room.
    Mr. Franks. And you would reject again the notion that it 
is destabilizing?
    General Selva. Yes, sir.
    Mr. Franks. And what emphasis do you put on the 
significance of that capability and maintaining in the future 
an effective rationale for keeping our bomber leg of our triad?
    General Selva. I think it does two things for us. We have 
already talked about the cost imposition on any potential 
adversary. That is a critical piece of keeping the bomber leg 
of the triad viable.
    It is also critical to keeping the B-52 viable, as the 
airframe itself cannot penetrate Russian air defenses--or 
Chinese air defenses, for that matter--and, as a consequence, 
must have a standoff weapon that is capable of contributing to 
its leg of the deterrent.
    Mr. Franks. Yes. General Hyten.
    General Hyten. Congressman, I will bring to the classified 
session tomorrow a detailed explanation. There is actually an 
integrated story when you put the bomber together with the LRSO 
that we can only talk about in a classified forum that actually 
explains the military requirement very specifically and why we 
need that.
    There are a lot of policy discussions we have had today but 
I think the military requirement is actually the most powerful, 
and we can share that tomorrow.
    Mr. Franks. Thank you, and I look forward to that. General 
Wilson, did you have anything to add?
    General Wilson. Congressman, I would say the LRSO is the 
most flexible leg because when I match a weapon with all the 
bombers--in the future it will go on not only the B-52, the B-
2, or the B-21--it provides lots of flexibility.
    Mr. Franks. Yes.
    General Wilson. When you put numbers on them, again, just 
as the other generals have said, it is a cost-imposing strategy 
against our adversaries. I think it is a very effective 
deterrent capability and will do so in the future.
    Mr. Franks. Well, thank you. And, Mr. Chairman, I think 
that last point was very important: It gives our command 
capability the opportunity to make some additional decisions if 
they have to rather than having the bombers over enemy 
territory.
    And finally, I think we should reject this notion of 
destabilization because Russia certainly has this capability 
and they continue to build on it and expand it.
    So I appreciate you all being here today. And thank you, 
Mr. Chairman.
    The Chairman. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here.
    One of the things that concerned me as I was reading 
through everything: Yes, there is an emphasis by all of you of 
the need for modernization and for replacement, and there is 
this concept of the triad. And I have heard the testimony 
before, and you seem to be just assuming that the triad is the 
way we must go. And I have heard your explanations and I, quite 
honestly, I am not necessarily convinced that that is the way 
that we must go.
    For example, the warheads you talked about, 1971, I think, 
was when they were put together. You all realize that it took 
10 years after that before you all graduated college.
    So when we are talking about modernization, right, how or 
why are you all assuming that the triad system is like the 
essential threshold to modernization? And that is other than--
if you will respond in this way--other than your respective 
jurisdictional areas.
    General Selva. Thank you, ma'am, for the question.
    First of all, it is not that the triad is foundational to 
modernization. We believe the triad is foundational to 
deterrence. It is not about how we view the triad; it is how 
our potential adversaries view the triad.
    So three times in the last 5 years the Joint Staff has been 
asked this question: Could we go to a dyad? Could we eliminate 
a leg of the triad? If you were to eliminate a leg, which leg 
would you eliminate?
    The sum total of all of that analysis has resulted in a 
commitment on the part of the Joint Chiefs of Staff to maintain 
the triad because of its value in deterring our opponents.
    It does several things for us. We have talked about the 
operational parts, where no single leg can be taken out at one 
time and that presents a targeting and strategic problem to an 
adversary.
    The other thing it brings us is the ability, strategically, 
to hedge between legs of the triad, so if someone were to 
figure out how to completely defeat our bomber force we have a 
fallback position.
    Ms. Hanabusa. But, General, you have all basically said 
that everything that we have in the triad needs to be 
modernized. And I believe General Wilson, in his testimony, 
said that, you know, the really peer that we have is Russia. 
There is China and North Korea who are coming on board, but our 
real peer in terms of this area is Russia.
    So, I guess my issue is this: If we are looking at how we 
are going to battle into the, quote, ``the modern era,'' or 
modernizing, shouldn't we be focusing on how they--our quote, 
``potential adversaries'' and the ones that we anticipate are 
coming on board--how they will arm and what we must do to 
combat that?
    Because it seems like we are sort of in this mode of, well, 
we--not necessarily that the triad is the essence of 
modernization but somehow it is sacrosanct right now, and this 
is what we think works best.
    But we are talking about modernizing; we are talking about 
a new series of adversaries. And so how is it that you have 
thought about that potential and in then assuming that the 
triad is necessary and the way that you are all choosing to 
modernize within the triad is what is going to be the best way?
    I understand the Columbia class coming on board. I do 
understand that. And I understand the essence of the--then the 
quote what we call the ``deep blue sea'' and what they need to 
do. However, I am wondering about the ICBMs, where we place 
them, and this bomber capacity.
    General Hyten. Congresswoman, we start from the adversary. 
That is where all the analysis starts.
    We start looking at Russia. That is where the nuclear 
analysis starts.
    Then we look at China, we look at North Korea, look at 
Iran. But we start from what they are doing, because the 
adversary gets a vote. They get a vote, and we don't get the 
vote on what they are going to do. So we have to look at what 
they are doing and figure out how to respond.
    And if you look at the role of deterrence, the primary role 
of deterrence is to deter the use of nuclear weapons anywhere 
else on the planet. And if you eliminate one element of the 
triad, the challenge that creates for us as military officers 
is that now we are one failure, we are one problem away, we are 
one challenge away, we are one breach in intelligence away from 
an adversary thinking that they can possibly attack the United 
States with a nuclear weapon.
    That fundamentally changes deterrence.
    Ms. Hanabusa. General, I am going to run out of time, and 
what I would like is to have you respond to me in writing if 
you can.
    I understand that. However, when your basic essentials, 
which is the weaponry that we have and all of that, may not be 
the proper deterrent, or the bombers may be something that can 
be detected, those are the issues that I would like to have you 
respond as to how that fits into modernization.
    Thank you, Mr. Chair. I yield back.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. And, gentlemen, thank 
you so much for joining us, and thanks so much for your 
service.
    General Hyten, I would like to discuss the military 
requirement for the long-range standoff cruise missile in a 
little more detail. I want to focus on the platforms.
    And we have penetrating platforms like the B-2 and upcoming 
the B-21. Tell me why those platforms, with their capability 
and them going in to deliver a gravity nuclear weapon like the 
B-61 would not meet the standards or the requirements that have 
been set by LRSO.
    General Hyten. Sir, I can't talk about the specifics in an 
open hearing. I will bring those specifics into the closed 
classified session tomorrow so I can give you the number.
    But in general, let me just describe that it is a mix of 
ranges. What is the range of the long-range standoff weapon? 
What is the range of the bomber? What is the target that we 
have to do?
    And if you look at the globe and you look at Russia and 
China in particular, they are very large countries, and it is 
about an access issue. And so when we combine all those 
military requirements together and we meet the requirements 
that are in the air leg of the triad for what we have to do, 
that is how it comes together.
    And I will show you the details tomorrow in the classified 
session.
    General Selva. Congressman, if you would let me add one 
more point to that----
    Mr. Wittman. Yes, General Selva, yes.
    General Selva [continuing]. And this is something that is 
missed quite often in the LRSO conversation. In order for a 
bomber to deliver gravity--to deliver a gravity bomb it must 
fly over or approximate to the target. And it has to do that 
one target at a time.
    If we find ourselves in a position where we have to strike 
multiple targets with relative simultaneity, the lack of 
existence of a long-range standoff munition means we have to 
dedicate more force to that same problem set.
    And so part of the advantage in the LRSO--and it is one of 
the requirements--is that it be shot from some distance and 
that it can be released from the bomber in relative short order 
so that you can get that degree of simultaneity that you cannot 
get with the laydown of gravity bombs.
    And again, until or unless we negotiate cruise missiles out 
of everyone's nuclear arsenal, the capacity to be able to do 
that adds value, brings flexibility, and it confounds the 
enemy's belief that they might be able to attack us and get 
away with it.
    Mr. Wittman. Very good. Thank you. Thank you. Great point.
    General Wilson, I wanted to go to you and get your 
perspective. We had heard some comments earlier about the aging 
inventory of our air-launched cruise missiles, and we know 
where they are today with their age, what they were planned for 
originally.
    But tell me, what happens with the current age of these 
missiles and our ability to perform the mission if LRSO is not 
delivered on time, and do we have the same element of 
deterrence as that inventory of air-launched cruise missiles 
ages and if we don't get LRSO?
    General Wilson. Yes, thank you for the question.
    As you remarked earlier, our current cruise missiles were 
built in the early 1980s, designed to last 10 years. We are now 
on their fifth SLEP [service life extension program], their 
service life extension for those missiles. To meet General 
Hyten's requirements we talk about being safe, secure, 
effective, and ready.
    As these missiles continue to age out they will become 
potentially unreliable and--on one piece and not able to reach 
their target. So there is an effectiveness piece and there is a 
reliability piece.
    They are currently safe, secure, effective, and reliable. 
But looking 10 years in the future, we don't have much slack. 
Again, right now we are on our fifth service life extension and 
we need a new replacement for that ALCM missile, the LRSO.
    Mr. Wittman. Very good. Thank you.
    Admiral Moran, I wanted to talk to you about that 
extraordinarily important part of the nuclear triad, our Ohio-
class submarines. We are today in the process of replacing 
those submarines with the Columbia class.
    Give me your perspective. I know that we are pushed with 
having the proper number of 12 submarines, which is the 
projection, and being, for a period of time, as you spoke of 
earlier, at 11 submarines. Give me your perspective on what we 
will do to accommodate for that lower number of submarines 
through that period of time.
    Is it longer deployments at sea? What do we do to make sure 
we have the proper presence there? Because as we know, we need 
11 submarines to have a presence, I believe, at any one time of 
6 submarines at sea.
    Can you give us perspective about how you create that 
balance and why 11 is going to be sufficient for the mission 
through that timeframe?
    Admiral Moran. Thank you sir.
    You captured it quite well there in terms of the length of 
deployments and how much longer we would be able to sustain a 
crew at sea or turn around a crew at sea, shorter durations. So 
there are several aspects of what you described that we can do 
to make up that delta.
    The biggest one is the maintenance of those existing Ohio 
as they reach the end of their life and the new Columbia as 
they come in in the 2030s.
    Mr. Wittman. Very good. Thank you, Mr. Chairman. I yield 
back.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman. And thank you all 
for coming here today.
    The Congressional Budget Office [CBO] estimates the cost of 
modernizing U.S. nuclear deterrent will cost about $400 billion 
over the next decade. Reports also indicate U.S. will spend $1 
trillion over the next 30 years in order to modernize and 
maintain our nuclear triad.
    All our witnesses have expressed the importance of 
modernizing our nuclear capabilities and the risks of 
continuing to use systems that are operating beyond their 
service life. To this end, I believe it is imperative for this 
committee to be informed of the long-term plans, timelines, and 
cost projections of implementing such a costly and extensive 
modernization program.
    This is the National Nuclear Security Administration's 
annual report that covers DOE's costs and plans for nuclear 
warheads and related infrastructure over the next 25 years.
    General Selva, can DOD [Department of Defense] provide this 
committee with its 25-year plan, timelines, and cost estimates 
in regards to its nuclear modernization efforts? If yes, when? 
And if no, why not?
    General Selva. Congressman, my understanding is we 
communicated those requirements in our President's budget in 
2017. They will be re-communicated as part of our program.
    But I will be happy to work with our team back in the 
Pentagon and come back to you with a more fulsome answer to 
your question over the next decade to decade and a half. Our 
numbers are slightly different than CBO's for a couple of 
reasons, but we will work through that with you and make sure 
you have the numbers.
    Mr. Carbajal. Great. Thank you very much. I yield, Mr. 
Chair.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Wilson, there are large differences in the opinion 
of the Air Force and the Office of Cost Assessment and Program 
Evaluation [CAPE] at the Secretary of Defense.
    Why are there such large differences on the assessment of 
the ground-based strategic deterrent? Does the Air Force stand 
behind its service cost position? And when will the Air Force 
and CAPE have enough data to revisit and revise their cost 
estimates and narrow the range that we are seeing?
    General Wilson. Congressman Scott, we certainly stand 
behind our projections. Quite frankly, the projections differ 
because we use different sources. We haven't built a new 
missile in many years, so we used Minuteman III and Peacekeeper 
data; CAPE used D5 [Trident II] data as well as MDA [Missile 
Defense Agency] data. Therefore, the differences in the two 
service cost positions.
    We expect to have--we got our proposals in now and about a 
year from now, this March of 2018, we should have further data 
to be able to refine that and provide that forward.
    Mr. Scott. Thank you.
    General Hyten, would you please describe the military 
requirements driving the need for GBSD? What are the military 
effectiveness and cost implications of choosing to life-extend 
the current Minuteman III missile fleet and related ground 
infrastructure rather than pursue GBSD?
    General Hyten. So, the detailed military requirements are 
classified, sir. We can provide you with those in a separate 
forum. We would be glad to do that.
    Mr. Scott. Okay.
    General Hyten. In general, the requirement for the land-
based element of the triad is to be able to provide a 
survivable, responsive capability to any threat attack that is 
coming from any adversary around the globe. We have to be able 
to do that inside the timelines of what that adversary 
missile--and if you just do the math, the public math is it is 
about 30 minutes from Russia to the United States.
    So that drives the timelines that we have to respond. That 
not only drives the missile capabilities, but it describes the 
infrastructure it has to be put into as well as the command and 
control with it.
    Mr. Scott. General Selva, if you can't speak to it in this 
forum, perhaps tomorrow: What is the collective judgment of the 
Joint Chiefs on whether we should pursue the GBSD program and 
retain the land-based leg of the triad?
    General Selva. The Joint Chiefs have endorsed moving 
forward with the ground-based strategic deterrent program based 
in large part on an analysis of alternatives that was done for 
the Joint Requirements Oversight Council that incorporated in 
one of its excursions life extension of the Minuteman III 
versus deployment of a new missile, and the costs were seen to 
be equivalent if not prohibitive for the continued life 
extension of the Minuteman III.
    Mr. Scott. Thank you.
    General Hyten, we have seen a lot of GBSD acquisition 
details loaded into unclassified acquisition databases and run 
by the Air Force. We all know that Russia, China, and others 
scoop all this stuff up to the best of their abilities and 
analyze it intensively.
    Why is all of this put out in the open? Should we reassess 
what is unclassified in these acquisition documents?
    And could you speak to also the greatest cost and technical 
risk in the GBSD the program? For example, what is your view of 
the priority of possible mobile command-and-control concepts 
being considered?
    General Hyten. I hate the stuff that shows up in the press. 
I think we should reassess that.
    Just to complete that thought, I hate the fact that cost 
estimates show up in the press as well. Because if you put a 
cost estimate out in the press it is not only our adversaries 
that are looking at it, but the people that are going to build 
the system are looking at that, and if that is what our cost 
estimates say, if we say it is going to cost $80 billion it is 
probably going to end up costing $80 billion. I hate that we go 
down that path.
    Mr. Scott. And then some.
    General Hyten. And then some. So I would really like to 
figure out a different way to do business than that. I hate 
seeing that kind of information in the newspaper.
    Now, as for the complications in the GBSD program, I think 
the--you know, we spend all our time talking about the missile. 
The missile, to me, is the easiest part of the structure. 
Everybody thinks about the missile and how much is the missile 
going to cost. How much is that?
    At the last, just a couple weeks ago I was at F.E. Warren 
in Wyoming. I went down in one of the missile holes and the 
sign as you came in said, you know, this was created in 1963. 
That structure was created in 1963.
    The command-and-control assets that go around with it were 
started in the 1960s, modernized in the 1970s. They have gone 
through multiple life extension programs. It is the 
infrastructure that is around the missile that will be the 
challenge of the program, not the missile itself.
    Mr. Scott. Gentlemen, thank you for your service. My time 
is about expire so, Mr. Chairman, I yield back the 8 seconds.
    The Chairman. And we will take it.
    Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman. Gentlemen, thank 
you for being here today.
    General Selva, you had mentioned in your written comments 
about the 6.5 percent projection moving forward. How do we know 
that that is going to be enough money to be able to deal with 
the multitude of issues we have here, whether it is command and 
control or new systems coming onboard?
    General Selva. Sir, all I can tell you is that that is our 
best judgment of what resources we are going to need to do the 
modernization on the schedule that we have laid it out. So that 
6.5 percent estimate is actually based on taking all of the 
design and build programs and projecting them forward as a 
percentage of our base budget.
    Mr. O'Halleran. Admiral Moran, the Columbia class, the 
minimum are--the minimum that we need are 10 at a time--are 10. 
Two are going to be down because of reactors replacement at 
times?
    Admiral Moran. No, sir. The Columbia class has a reactor 
core that it will last for 40-plus years, so we will not have 
to re-core those unless we extend the life----
    Mr. O'Halleran. Okay.
    Admiral Moran [continuing]. Beyond 42 years.
    Mr. O'Halleran. I misread that then.
    Admiral Moran. Yes, sir.
    Mr. O'Halleran. Thank you----
    Admiral Moran. The other two, the reduction from 14 to 12 
is to account for the fact that the core lasts that long, and 
there is other maintenance that has to be done on any ship, and 
that is why we are able to do it with the 12 instead of the 14.
    Mr. O'Halleran. Okay. Thank you.
    And, General Hyten, the cyber warfare aspects of all this, 
command and control and the--how does that--has that factored 
into your cost estimates?
    General Hyten. So I will just say that, you know, we were 
having a conversation with Congressman Turner a while ago about 
the concerns about the NC3 capabilities that we have today. The 
good news about the nuclear command and control capability we 
have today is it is very cyber secure. When you build a system 
in the 1960s, before anybody knew what the term ``cyber'' was, 
you have inherently built in an amazing amount of 
cybersecurity.
    The challenge that we have as we go into the future is that 
you can't build that again. We have to fundamentally build it 
now in a 21st-century architecture, which will have the cyber 
threat that we have to work through.
    That is a significant element of our risk assessment as we 
go through and part of the design criteria as we look at how we 
are going to do this nuclear command and control in the future.
    Mr. O'Halleran. And, General, you--I had mentioned cost, 
also. How does that factor in as far as being able to fund the 
other systems, which all require cyber issues, also?
    General Hyten. It is a significant element of the cost 
estimates. You would have to ask the services for the details 
that are in those cost estimates, but I have talked to the DOD 
CIO [Chief Information Officer] in particular about that 
capability. I have sat in on the panels that General Selva was 
talking about a while ago.
    We look at those very close and that cybersecurity, cyber-
resilience, cyber-defense architecture is involved in every one 
of the plans that we come up with, as well as the cost 
estimates.
    Mr. O'Halleran. Okay. Thank you. And, Mr. Chairman, I 
yield.
    The Chairman. Dr. DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman.
    General Selva, you spoke with a bunch of us yesterday 
regarding the aging of our nuclear forces and, you know, we 
have talked about a lot of the slippage issues that we want to 
avoid.
    General Hyten, what are the impacts to the credibility of 
our nuclear deterrent if we see major schedule slips to any of 
these programs?
    General Hyten. Congressman, that is the risk in the program 
right now. I have been involved in this business long enough to 
know that if you have five different programs that all deliver 
just in time you have inherently put a risk in the program that 
is very significant because, sadly, one of those programs, two 
of those programs, three of those programs, they won't all 
deliver on time.
    Therefore, that is why we have to manage it very closely. 
And that is why stable budgets, stable planning, stable 
structure is so important to the entire Department of Defense, 
but in this area in particular, because without that stability 
we really do insert risk into the systems in the future.
    Dr. DesJarlais. Okay. Chairman Thornberry mentioned earlier 
that--this--the cost for this deterrence program is usually 
about 6 to 7 percent of the budget. Considering that this has 
been called the Nation's highest priority defense mission, do 
you agree with CBO that roughly 6 percent is a proper amount?
    General Selva. Congressman, we have looked at the numbers 
for the better of the 18 months or so I have been in this job 
and have scrubbed them really hard. Part of the debate about 
how much is enough came from how much is it going to cost? So 
we scrubbed every program to take any excess cost out of it; 
6.5 percent is where we land.
    On any given day we spend almost 3.5 percent of our defense 
base budget on maintaining the existing strategic deterrent. So 
what we are talking about is a period of time, roughly a decade 
and change, where we have to double that investment to continue 
to maintain the existing deterrent and field its replacement, 
and that is the consequence of where those numbers came from.
    Dr. DesJarlais. Okay. Well, I would like to thank all you 
gentlemen for being here today, and I yield back my time.
    General Selva. Thank you, sir.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Gentlemen, thank you very much for your 
service and for the questions that you have answered. I look 
forward to the classified hearing. Hope we can get into this in 
much more depth.
    But, General Hyten, a question for you. Last week 
Lieutenant General Jack Weinstein stated that the New START 
[Strategic Arms Reduction Treaty] has huge value for the United 
States and that the agreement has been good for us. He noted 
that the reason you do a treaty is not to cut forces but to 
maintain strategic stability among world powers, and the New 
START Treaty allows us to maintain that stability. Those are 
his quotes.
    If the United States--and the question for you--if the 
United States withdrew from the New START or took steps which 
called into question our treaty obligation, what would be the 
effect on strategic stability?
    General Hyten. So, Congressman, I have stated for the 
record in the past and I will state again that I am a big 
supporter of the New START agreement. I believe that, 
especially when it comes to nuclear weapons and nuclear 
capabilities, that bilateral, verifiable arms control 
agreements are essential to our ability to provide an effective 
deterrent.
    If you remove that effective deterrent structure, which is 
the New START Treaty, it makes it very difficult for us to know 
the levels. The risk would be an arms race.
    We are not in an arms race now, to go back to a previous 
question. The concern would be what do we have to do in order 
to stay at the same level as our adversaries, and that could be 
a very risky proposition. That is why I continue to support the 
New START levels that we are under right now.
    Mr. Garamendi. Thank you, General. General Selva, are you 
of the same mind?
    General Selva. I am, sir. When the New START Treaty was 
brought to the Congress for ratification the Joint Chiefs 
reviewed the components of the treaty and endorsed it. It is a 
bilateral, verifiable agreement that gives us some degree of 
predictability on what our potential adversaries look like.
    Mr. Garamendi. Now, keeping that in mind, there has been 
discussion about new tactical or new low-yield strategic 
weapons. Maybe they are both tactical as well as strategic.
    The Defense Science Board, in their seven defense 
priorities for the new administration, recommended expanding 
our nuclear options, including deploying low-yield weapons on 
strategic delivery systems. Is there a military requirement for 
these new weapons?
    General Hyten. So, Congressman, that is a great 
conversation for tomorrow when I can tell you the details. But 
from a big picture perspective in a public hearing, I can tell 
you that our force structure now actually has a number of 
capabilities that provide the President of the United States a 
variety of options to respond to any numbers of threats.
    Mr. Garamendi. And----
    General Hyten. I will also say that I don't agree with the 
term ``tactical nuclear weapon.'' I just fundamentally disagree 
that there is such a thing as a tactical nuclear weapon. I 
believe that anybody that employs a nuclear weapon in the world 
has created a strategic effect and all nuclear weapons are 
strategic.
    Mr. Garamendi. I thank you for that statement. I think it 
is accurate. And that goes to escalate to deescalate; that also 
goes to our deployment of tactical nuclear weapons in Europe.
    General Selva, you spoke to this earlier about the dual-
capable aircraft that we have in Europe. And the purpose of 
those apparently is to cause Russia not to invade, so that is 
an escalation to deescalate, or could be.
    General Selva. Congressman, not to be argumentative, the 
stated purpose of those weapons is to deter the Russians from 
escalating to nuclear warfare in order to prevent a 
conventional attack from going nuclear. They are--I use the 
NATO nomenclature--nonstrategic nuclear weapons, accepting what 
General Hyten just said. But I take your point.
    The stated intended purpose of those weapons is to deter 
the Russians from using nuclear weapons if they were to attempt 
to escalate a conventional war.
    Mr. Garamendi. All of which creates a conundrum. Thank you 
very much, gentlemen. I yield back.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    I would like to zoom back out, if we could, to the 
strategic level. The last Nuclear Posture Review was published 
7 years ago. The world, obviously, is very different today than 
it was in 2010, particularly when talking about countries like 
Russia.
    Today, at least for my perspective, it is hard to see 
Russia as a partner and a friend, like the 2010 NPR envisioned. 
For instance, Russia continues to make dangerous and aggressive 
nuclear threats and exercises directed against the U.S., NATO 
allies, and neighbors. Russia has declared an openly discussed 
doctrine to use a Russian nuclear weapon early in a conflict to 
deescalate and get the United States to back down.
    Russia continues to brazenly violate the INF Treaty, and a 
recent media report indicates its INF-violating cruise missile 
is now operational and deployed. Russia intentionally broadcast 
plans for its so-called Status-6 nuclear weapon, which is a 
high-speed unmanned underwater vehicle that would carry a 
megaton-class nuclear weapon into a U.S. harbor and detonate. 
Not to mention the invasion, occupation, and annexation of the 
sovereign territory of its neighbors.
    Would you please, this is a question really for the entire 
panel starting with General Selva: Would you please provide, in 
your professional military views, what has changed in the 
world, in your professional opinion, since the 2010 NPR? And 
why, from a military perspective, does that matter?
    General Selva. Yes, sir. I would make two points.
    One, I have been public with the notion that Russia and 
China are the two nations of the world that potentially pose an 
existential threat to the United States. I am on the record in 
my confirmation hearing as the vice chairman saying the same.
    What has changed in the last 10 years is the--is a 
continuing realization that Russia intends to assert themselves 
as a great power and in doing so has changed the relationship 
in terms of our military-to-military qualitative and 
quantitative match. And we have to address that.
    And so as we enter this first--the first NPR of this 
administration--Nuclear Posture Review of the Trump 
administration--one of the very key questions that will have to 
be asked as we start the process from the intelligence 
community is a definitive answer to what has changed since the 
last time we did this work.
    To be fair to the Obama administration, there was a 2010 
NPR. There were two major nuclear strategy reviews in 2012 and 
2014 as well, but they didn't raise to the status of an NPR 
because the President didn't believe we needed to do one. So a 
lot has changed, Congressman, to your point.
    General Hyten. So, Congressman, the vice chairman hit 
pretty much all the points I wanted to make with the exception 
of one broad issue that has changed significantly since 2010.
    Since 2010 our potential adversaries, particularly China 
and Russia, have not just looked at the nuclear enterprise; 
they have looked at space and cyber. And strategic deterrence 
in the 21st century is much bigger than nuclear deterrence was 
in the 20th century.
    We have adversaries that are building weapons and 
capabilities to counter our advantages in space and in cyber. 
We have to look at the entire strategic landscape and make sure 
we consider all that action. The nuclear capabilities that we 
have is the backstop for all of that, but it is a much broader 
issue that has become very apparent since 2010.
    Admiral Moran. Congressman, I don't have much to add there 
except that when we look just navy-to-navy, and the 
capabilities that the Russians have deployed since the last 
Nuclear Posture Review are significantly better than what we 
saw leading up to that review. So we have to account for that 
in this next step.
    General Wilson. Congressman, the only thing I would add on 
to tag onto General Hyten's comment is when we talk about the 
nuclear triad we have to realize it is bigger than just the 
bombers, the ICBMs, and the submarines. It is the command and 
control; it is space; it is tankers. It is a much bigger 
enterprise than just the three legs of the triad that we have 
got to be thinking about.
    Mr. Gallagher. Thank you, gentlemen. Thank you, Mr. 
Chairman. I yield the rest of my time.
    The Chairman. Mr. McEachin.
    Mr. McEachin. Mr. Chairman, my question has been asked and 
answered, and I have enjoyed listening and learning today, so I 
yield back.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thanks, gentlemen. 
Good discussion today about the importance of investing in 
recapitalization of the triad.
    I want to talk about an important element of that, which is 
the human capital and specifically, General Wilson, the 
missileers in the ICBM force. I mean, we have seen over the 
last year some challenges there.
    You know, we are in a new time and we are with a different 
generation. I don't like to make generalizations, but the old 
SAC [Strategic Air Command] warriors that we all know and love 
are very different from the mindset of millennials coming into 
this role. There are real challenges. They are going to--no 
insult to my colleagues from these States--but challenging 
geographic locations.
    F.E. Warren was our sister squadron when I was at the 
Academy. For many years, you know, often no deployment, and 
they see that they are working with old technology too, so that 
shows, I think, that, you know, hey, this isn't a priority for 
us to be further investing in that.
    We have addressed some of these shortfalls very much in, I 
think, a punitive way. I mean, obviously it is appropriate to 
have zero-fail, but that doesn't help with morale, culture, 
motivation, and all the important things that we need for 
people to be motivated to do this important mission.
    So as we are looking at modernizing parts of the 
infrastructure and the force, are we looking at modernizing the 
workforce? So are we thinking outside the box?
    Does it need to be a dedicated career field anymore? Are 
there ways for them to become the deterrent experts for our 
military, not just in nuclear deterrence?
    Is there a thought of how to do some innovative things for 
their leadership development while they are in these 
assignments that is not fake but actually very real and shows 
that value?
    So I am just wondering, are we willing to shake up and look 
at some fresh ideas to modernize the workforce? It is very 
important.
    General Wilson. The short answer is absolutely. And that is 
a key part of what you are hitting is this human weapon system.
    So coming out of the Force Improvement Program, both the 
internal and external reviews hit upon this piece of culture. 
And I would say the culture had gone to a culture of 
micromanagement.
    And so today's workforce we are focusing on this, how do I 
empower our airmen? And how do they see themselves in a future 
of which they believe what they are doing is important?
    So for a long time our Nation didn't, I would argue, didn't 
value the nuclear force. We have to change that at all levels.
    And so how do we then develop and grow airmen that realize 
that what they are doing is important and then they can do 
something about it? We have certainly lots of opportunities 
that we develop our missileers, and empowering them earlier, 
whether they become an expert in their weapon system, we make 
them flight commanders in our weapon system, we send them to 
weapon schools, we are sending them to very prestigious 
universities, to Stanfords to Harvards for training.
    We stood up the School for Advanced Nuclear Deterrence 
Studies there at Kirtland Air Force Base, which is focused on 
how do I build a person who can understand and articulate what 
deterrence means in the 21st century?
    So the short answer is yes. We think that this is a really 
important part of changing the culture, and you are hitting on 
a big piece of it.
    Ms. McSally. Thank you. General Hyten or General Selva, you 
got any other comments on that?
    General Hyten. I would like to add something, ma'am.
    One of the things I do on holidays is I just pick up the 
phone, and I punch the number for the folks that are in the 
missile fields, because when I left the enterprise really in 
2009 the morale was really bad. Really bad. And I saw that you 
couldn't miss it.
    And now I--when I talk to lieutenants--and it is mostly 
lieutenants that are there--their morale is high. They are all 
excited about what they do. They understand the importance; 
they understand it is the most important thing.
    But I think one of the things that you mentioned is that 
that can be a temporary issue. That is the power of leadership. 
And leadership is good, but we need to follow it up with real 
capabilities where they are operating on 21st-century 
equipment, they are operating those kind of pieces. And if we 
don't follow through on that I am afraid that the morale could 
go back the other direction.
    But right now, through the power of leadership and focused 
effort, I am very pleased at how high the morale is in the 
missile fields.
    Ms. McSally. So you think the punitive culture that I am 
talking about is behind us? We need to hold people accountable, 
don't get me wrong; but when you feel like I am going to be 
punished for all the little things, that's a morale----
    General Hyten. So the change it's made is really good. It 
is because the no-fail is now a no-fail mission.
    Ms. McSally. Yes.
    General Hyten. It is not a no-fail person; it is a no-fail 
mission. And when you realize it is the entire team that has to 
come together, and if there is a glitch on one person in the 
team, whether that is a security forces or wherever it is, and 
the rest of the team can overcome that and have a no-fail 
mission, that is what we are trying to get after. And that is 
the conversation I hear now with the lieutenants in particular.
    Ms. McSally. Great. General Selva, anything?
    General Selva. I think I would make two points very 
quickly.
    One is a path to leadership and a continuing real emphasis 
on relevance and the importance of the mission. And what I see 
when I go out to missile bases, bomber bases, and submarine 
bases is a group of very motivated, very dedicated and 
disciplined sailors and airmen who see both of those right now.
    That has not always been the case, particularly in some of 
the incidents that we saw inside the ballistic missile force 
and in a small element of the bomber force.
    So I am optimistic--and I am generally not an optimistic 
person--that we have put in place a pathway that attends to the 
professional development and the future of the officers and the 
young airmen in the Air Force that we are asking to do this 
mission, and in the case of the Navy, the sailors and the 
officers who are manning our strategic ballistic missile 
submarines and the infrastructure that supports them.
    Ms. McSally. Great, thanks. I am over my time. I appreciate 
it.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Our Oversight and Investigation Subcommittee is going to 
have a hearing next week on infrastructure problems at the 
Department of Energy's nuclear weapons enterprise. They have an 
almost $4 billion backlog in deferred maintenance and are 
operating facilities that date back to the Manhattan Project.
    Now, I realize that the facilities still comply with 
nuclear safety requirements, but I am not sure how long that 
will last.
    And so, General Selva and General Hyten, I know that you 
have both had the opportunity to visit some of these important 
DOE facilities. Can you tell us about the state of their 
infrastructure, any views that you have on the need to rebuild 
NNSA's [National Nuclear Security Administration's] facilities 
so that they can deliver on their mission to support the 
military?
    General Selva. Ma'am, I think it is really important that 
we get at the infrastructure shortfalls inside of DOE.
    To that end, inside the Department we host every other 
month a group we call the Nuclear Weapons Council that looks at 
the safety, security, and reliability of the arsenal itself and 
then attends to the issues in partnership between the National 
Nuclear Security Agency, DOE, and DOD to the emerging 
infrastructure needs and human capital needs inside of that 
workforce that assembles and maintains the core parts of our 
nuclear arsenal, and those are the weapons themselves.
    Mrs. Hartzler. Very good. General Hyten.
    General Hyten. Ma'am, the Department of Energy has taken 
that on pretty seriously, but it has been about a year since I 
was at the three national labs, in particular Livermore, 
Sandia, and Los Alamos. And there are really two issues that 
you have to look at, and two issues that I look at when I go 
there. One is the people, and number two is the infrastructure.
    And each of the labs has done a very interesting 
recruitment process on the people. And now they have this young 
set of physicists and engineers that have been brought onboard 
that are some of the best and brightest in the country that 
really set up for that structure.
    But it goes back to the same conversation I was just having 
with Congresswoman McSally, is that it is--if you don't follow 
up with the infrastructure and all the other pieces that come 
with that, you put that at risk because people that are that 
bright have choices in this country today, and we want them to 
be able to do that.
    So the infrastructure is a significant issue and we need to 
go after that as an enterprise. That is a national security 
issue. That is why the Department of Defense is interested.
    General Selva. Ma'am, if you would allow me to make a 
follow-up point----
    Mrs. Hartzler. Sure.
    General Selva [continuing]. And that is we tend to be 
focused on the physicists, the scientists, and the designers 
that do the work of designing and analyzing the weapons that we 
employ.
    In point of fact, the infrastructure has a huge impact on 
the young mechanics and machinists who are the people that are 
touching the weapons and actually assembling them. And to see 
the discipline that they put into the work that they do to 
disassemble and reassemble nuclear weapons--and they know 
precisely what that means--and to have them working in 
infrastructure some of which dates back to the Manhattan 
Project, and they have to deal with not only the safety and 
security of the weapons but the physical environment that they 
work in, my worry is for that part of the workforce because 
they can come and go as they please.
    And we have to address their capacity to do the work we are 
asking them to do, which is a fairly major process of 
remanufacturing weapons to meet the requirements for the 
future.
    Mrs. Hartzler. I really appreciate those comments. And 
those will help build into what we are going to look at next 
week, so thank you for sharing your views on that.
    Let's talk about nonstrategic nuclear weapons because there 
is a gross disparity on that front between United States and 
Russia and they are not covered by any treaty.
    So, General Hyten, would you please compare and contrast 
the U.S. stockpile of nonstrategic nuclear weapons versus that 
of Russia? And in general unclassified terms, would you 
describe our respective stockpiles as equal in size and 
capabilities?
    General Hyten. I believe our stockpile allows us to provide 
an effective strategic deterrent. Again, I have a unique 
perspective as the commander of Strategic Command, but I look 
at every nuclear weapon as having a strategic impact.
    So as I look at what Russia is doing, I am very concerned 
about that. That is why I agree with the vice chairman in his 
discussions earlier about the need for future bilateral, 
verifiable arms control discussions with Russia, China, all of 
the players in--so that we can look at exactly where we are 
going in the future. And all of those things should be 
discussed.
    Mrs. Hartzler. So what about the numbers?
    General Hyten. The Russian numbers are huge and our numbers 
are small. We will show you the specific numbers tomorrow. But 
that is because we have--our nuclear weapons are a strategic 
deterrent.
    Mrs. Hartzler. Fifteen seconds, where are we in our 
modernization compared to Russian modernization of the weapons?
    General Hyten. The modernization of the weapons? I don't 
have a detailed insight into the nuclear weapon modernization 
in Russia or China, but I can tell you that they are, across 
the nuclear enterprise, ahead of us in some areas of 
modernization, behind in other areas.
    But in general we can still provide the effective strategic 
deterrent we have to in this Nation, but we have to step 
forward quickly into the modernization realm.
    Mrs. Hartzler. Good. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    And I want to thank all four of you for being here. We 
respect the leadership that you are giving your organizations 
and grateful.
    I wanted to ask a question about unmanned aerial vehicles 
and protecting our strategic installations. We are seeing a 
growing threat, whether it is other countries or even 
terrorists buying commercial drones or whatever it may be, and 
it is the threat to our installations.
    So in the fiscal year 2017 NDAA [National Defense 
Authorization Act] the Secretary of Defense was given authority 
to field and equip, train forces to defend our installations. 
So I had two questions, really.
    One to the force providers, Admiral Moran and General 
Wilson: Are we starting the process of fielding and equipping 
this capability to defend our bases?
    And then I wanted to ask General Hyten if he could comment 
about is he seeing the results? Do we need to do more? And how 
can we help?
    Admiral Moran.
    Admiral Moran. Sir, thanks for the question.
    As you know we have seen this issue around our submarine 
bases and it is very concerning. There is a lot of technical 
work going on to address the issue. I think the more important 
aspects of this discussion, though, are the policy and 
authorities to deal with them. So not only here in the U.S., 
but as well as overseas on the unmanned aerial threats that are 
developing worldwide.
    Mr. Bacon. Thank you, Admiral.
    General Wilson.
    General Wilson. Yes. Congressman Bacon, there is a big team 
looking at this from across the Joint Staff and interagency to 
be able to get at those questions that you just asked.
    Are we fielding capability? I would say right now we are 
giving--delivering on the first initial tranche of capability, 
but there is a lot of work to do. This is a very complicated 
threat, and we are learning more every day.
    So we have a bunch of projects under work with a bunch of 
different agencies, but in terms of actually delivering 
capability to the field, we are not there yet.
    Mr. Bacon. Yes. The threat is there and it is growing.
    General Wilson. Right.
    Mr. Bacon. General Hyten, how are we doing and what can we 
do to help?
    General Hyten. We are going too slow. We are going too slow 
both on the material solution side as well as the policy and 
authority side.
    The NDAA was enormously helpful in starting us down the 
policy and authority side. But, holy cow, the number of lawyers 
that are involved in this discussion right now are just--well, 
it is significant.
    We have to get the right policy and authorities out so our 
defenders know exactly what to do. Then we have to give them 
the material solutions, allow them to react when they see a 
threat and identify that it is a threat so they do the right 
things. We are just going way too slow and we need to 
accelerate that process across policies, authorities, and 
material solutions.
    Mr. Bacon. Well, thank you, General Hyten. Hopefully this 
committee will help give a nudge on that, as well.
    I wanted to ask one follow-up question or--on the command 
and control. I used to fly in the ABM CAP [Air Battle 
Management Combat Air Patrol], as you may know. I was one of 
the flag officers on there. It was really old technology.
    And I wanted to get your opinion, General Hyten. Should we 
be recapitalizing that entire fleet? Do we have enough numbers 
to do 24-hour operations if you wanted to go to that again?
    And how does this work with the alert force, doing it at 
Offut but based in another base? Do we need to relook at that? 
Thank you.
    General Hyten. So I believe that our airborne command and 
control across the board, including the ABM CAP and the TACAMO 
[take charge and move out], which is the same aircraft right 
now, both have a recapitalization initiative that is out in the 
future too, and we need to start looking at that right now. So 
I have asked the Navy to start looking at that.
    I will ask Admiral Moran to talk about those kind of 
pieces, but I know they are going through an analysis right now 
to determine what the right way is to get after those. But that 
is really in the service line.
    Mr. Bacon. Just a quick follow-up: Do we have the right 
number, too, if you wanted to go back to 24-hour operations, 
God forbid, if the world deteriorates?
    General Hyten. So that is a good theoretical question 
because a theoretical question when you actually put it out on 
a whiteboard it works, but when you have an airplane that is 
that old, how long you can actually keep that going is the 
question.
    There is no doubt that we could exercise it right now. We 
could go to 24/7 ops. But when you are operating in an aircraft 
that old, how long will they fly? And since we haven't done 24/
7 ops for a while that is a risk issue.
    Now when we look at it really hard, we believe that we can 
do that. We know we can execute it for a significant period of 
time but we don't know if it is a month, 2 months, 3 months, 4 
months, because they are old airplanes.
    Mr. Bacon. Thank you. And, Admiral Moran, appreciate your 
follow-up.
    Admiral Moran. Yes, sir. We are jointly working on figuring 
out a common airframe to satisfy the missions of both services. 
We currently have a plan in place to extend the service life 
for A-6s out to 2038, which will make them 49 years old, so you 
know what that is all about.
    That cannot be the final solution here. So we are looking, 
as the general indicated, at a way to get at a joint program or 
at least a common airframe to satisfy both missions.
    Mr. Bacon. Thank you. And, Chairman, I yield back.
    The Chairman. Dr. Abraham.
    Dr. Abraham. Thank you, Mr. Chairman.
    General Selva, thank you for hosting us--some of us 
yesterday on the--aboard the National Airborne Operations 
Center. It was instructional, educational, and it certainly 
highlighted how important it is to maintain and modernize the 
triad, that the dyad is not enough and we need all three legs 
of the stool to keep America safe. So thank you again for that.
    I am going to ask some rapid-fire questions. A lot of these 
have been answered. I want to put them in one-question format 
so we can refer back when we talk to our colleagues and educate 
them of how important it is to fund these issues.
    General Wilson, how old is the B-52?
    General Wilson. B-52s were built, most of them, in 1960.
    Dr. Abraham. And how old will it be when we plan to retire 
it?
    General Wilson. We are planning to fly it through 2050, so 
it will be 90 years old.
    Dr. Abraham. Wow. How old are the B-2s and how old will 
they be when they retire?
    General Wilson. B-2s today are 24 years old. We are 
scheduled to fly them through 2058, so they will be in the mid-
60s.
    Dr. Abraham. How old is the Minuteman III?
    General Wilson. Built in 1970, but it is really built with 
Minuteman I parts, which are 1960.
    Dr. Abraham. How old will it be when it is retired in 2030?
    General Wilson. Really old.
    [Laughter.]
    Dr. Abraham. Okay. Sixty. What was it designed to do? What 
was its lifetime design----
    General Wilson. Design life was 10 years.
    Dr. Abraham. Wow. Admiral Moran, how old will the Ohio-
class submarines be when they are retired?
    Admiral Moran. They will be 42 years.
    Dr. Abraham. It is unusual for a submarine to----
    Admiral Moran. It was designed for 30 years, so we got a 40 
percent increase in the service life through engineering.
    Dr. Abraham. And that brings risk, I am sure.
    Admiral Moran. Yes, sir. We can't go beyond 42.
    Dr. Abraham. I got you. General Hyten, what is the average 
age of our nuclear warheads?
    General Hyten. The average age of our nuclear warheads is 
26 years old right now.
    Dr. Abraham. Okay.
    And one more for you, General Wilson. On the nuclear 
weapons storage facility, I know most of them--or a lot of them 
are so outdated that we can't store there so we are having to 
store warheads in one place and Barksdale in Louisiana has to 
go pick those warheads up if they need to fly an operational 
mission. What does that do with readiness?
    General Wilson. Well, it just puts a stress on the force. 
And we have got to--when we consolidate to one place it 
provides for vulnerabilities. We have a plan to get after that, 
to re-modernize all of our weapon storage facilities.
    We will start here with the first one here at F.E. Warren. 
After that will become Barksdale and Malmstrom. And over the 
next 13 years we have a plan to replace all of our weapon 
storage facilities.
    Dr. Abraham. Okay. Thank you for your service, gentlemen. 
Mr. Chairman, I yield back.
    The Chairman. General Wilson, I don't think anybody asked 
you directly today the status of the new bomber program. Is it 
on time, on schedule, moving ahead as it should?
    General Wilson. Chairman, the chief of staff, the Secretary 
of the Air Force and I receive regular updates on it. They just 
finished a preliminary design review recently. It is making 
great progress, and we are pleased with the way it is headed.
    The Chairman. And so it is where it should be at this 
point?
    General Wilson. Yes, sir.
    The Chairman. Okay. And Admiral Moran, let me ask you about 
the Columbia class. We have heard there is no slack. Today is 
it on time, on schedule? Are you satisfied with where it is 
today?
    Admiral Moran. We are on time and on schedule. I am not 
satisfied with how much margin we have and obvious impacts and 
risk to delivering on time. But I am very comfortable with 
where we are on the schedule and the costing today.
    The Chairman. Okay.
    General Hyten, a few moments ago you made an interesting 
point. We tend to think of strategic deterrence as nuclear 
deterrence, but it is broader than that. There are other 
implications. There are press reports, and actually I think 
some of this has been confirmed, that other nations are trying 
to deny our ability to operate in space and from space.
    That has implications for the broader sense of strategic 
deterrence. I would ask you or General Selva, what should 
potential adversaries understand about attacks on our space 
system and how we would view such attacks?
    General Hyten. So attacks in space in general are bad--bad 
for the United States, bad for the world. Anything that creates 
debris in space lessens our ability to explore.
    I think all nations of the world have the desire to explore 
the heavens, and if we contaminate the space environment then 
we can never do that. So it is important for us to protect that 
environment as we go forward.
    When you look at what adversaries are doing, they are 
clearly building capabilities to deny us. Some of those 
capabilities could go after our strategic early warning 
systems. If there is an attack on our strategic early warning 
systems, our adversaries need to realize that they have just 
crossed a threshold that puts our understanding of what their 
actions are at risk and creates a potential issue that we may 
have to respond to in the broader strategic deterrent 
construct. Everything is integrated.
    An attack against an overhead satellite of a tactical 
variety has one impact; of strategic variety had another 
impact. But they are all bad.
    So our desire is to deter bad behavior in space, to deter 
any kind of activity in space that would harm the space 
environment.
    And so the message to our adversaries that you ask is that 
they should know that we are watching very, very closely. And 
we are developing capabilities to allow us to continue to fight 
through and respond to any attack that would come in the space 
domain now and in the future.
    The Chairman. General Selva, you have anything?
    General Selva. Chairman, just quite briefly, specific to 
the conversation we have been having today, the delineation 
between the indications-and-warning and command-and-control 
satellites is a signal we should send to our potential 
adversaries, that crossing that line in space denies us 
visibility into their actions and intentions and therefore 
creates ambiguity that is not helpful in terms of nuclear 
deterrence on both sides of the equation. I think that is a 
clear message we have to send every single day.
    The Chairman. Okay.
    General Hyten, on nuclear command and control, as you were 
talking about that being the thing you are most concerned 
about, it goes through my mind about what I describe as a ghost 
fleet phenomena. Are we better off to have 1960s technology 
that cannot be hacked into and have more reliability with that 
ancient sort of approach than if we were to update it?
    General Hyten. So, sir, I have asked that question myself, 
and there are two pieces to the answer.
    Answer number one is that if you have the ability to 
provide the President of the United States and the Secretary of 
Defense better situational awareness because they can make 
better decisions, you should do that. You can't do that with 
the legacy infrastructure; we can do that with a new 
infrastructure.
    And the second piece--and it sounds a little bit trite but 
it is actually true--is that with today's technology you really 
can't build what we built in the 1960s. The information 
technology today is fundamentally different.
    If you try to go back and--you can't build 8-inch floppy 
disk drives. You can't buy those things anymore.
    So you really don't have a choice. You have to modernize 
and you have to do it in a secure environment.
    But what you can do and what you can learn from the 1960s 
is you can segment things off so that people can't get into it. 
There is no such thing as a fully closed network because there 
is always a human in the loop, but you can create as closed a 
system as possible to improve your cybersecurity.
    The Chairman. Okay. One comment, and then I have one 
additional question.
    My comment is having been--watching these issues for a long 
time, I have seen the interest of the Department of Defense wax 
and wane in the DOE's activities on the weapons.
    You know, General Selva, you were just talking about 
visiting the labs, about the Nuclear Weapons Council meeting 
and those other things. For what it is worth, I would just 
encourage both you and General Hyten to keep the attention on 
this issue. It is not a situation where you can say, ``Oh, that 
is their job, and I am not going to worry about it.'' And you 
talked about the infrastructure and the other challenges that 
are facing the NNSA mission.
    So for what it is worth, I just want to encourage you both 
to stay on top of this because when DOD does not stay on top of 
it usually we degrade our capability and it is not a good 
thing. And we have seen this up and down over the last 20 
years, so I would just mention that.
    Last question I would like to ask each of you is just the 
state of our thinking on deterrence, because there is concern 
that after the fall of the Cold War we decided we didn't really 
have to worry about strategic deterrence as much, that, yes we 
had China but they weren't really a threat, and that we have 
put a lot of intellectual capital into counterterrorism and 
other problems but these issues have been neglected. And we 
were talking about that a little bit with the Air Force, about 
the importance that was put on these.
    But talk about, if you will, your comfort level with the 
intellectual effort that is being put on what is deterrence and 
how do we know whether it is credible? And if something we 
think will deter Russia, do we automatically assume that will 
deter North Korea, or is that a different kind of deterrence 
that we--that is not a lesser included case.
    I am just interested in y'all's perspectives on how much we 
have caught up in our thinking about these problems.
    General Selva. Sir, I won't say we have caught up. We are 
catching up.
    The impact of the attacks on 9/11 on the focus of our 
intellectual capital going after CT [counterterrorism], I would 
argue right and appropriate. But we took our eye off of the 
strategic nuclear deterrence intellectual capital of the Nation 
in a way that may not have been healthy.
    What I am encouraged by--and this is why I say we are 
making progress but we are not there yet--is the number of 
young men and women who are pursuing degrees in both physics 
and political science that are now beginning to study the 
components of nuclear deterrence and debate and seek graduate 
and post-graduate degrees. I have a young man working for me 
now who got his Ph.D. in political science and wrote about 
strategic stability in his dissertation.
    Those are the kinds of young men and women we are going to 
have to seek out, bring into the circle of policymakers so they 
can benefit from the experience of some of our more senior 
policymakers who have been doing this for decades, and build 
that cadre of people that are going to carry us into the 
future.
    General Hyten. Chairman, I will--I think catching up is the 
proper characterization. We are in a good place catching up.
    Where I think we have caught up is that inside the military 
we are having a very robust discussion now. We are talking 
about how do we integrate all of the plans between the various 
combatant commanders, including Strategic Command, and with 
European Command and Pacific Command.
    We are having a robust discussion of what deterrence means 
in Russia, in China, in space, in--but where we haven't caught 
up yet--and if you remember when we were all younger, when we 
were lieutenants and ensigns in the Air Force and the Navy, 
there was a robust academic discussion of what deterrence 
really meant. There were books written, there was debate. Even 
though we didn't have nearly as broad-based of a national media 
infrastructure, there was still this huge discussion in the 
academic community. That is just really starting back up right 
now.
    In STRATCOM we have now formed an academic alliance with 35 
different universities and think tanks to basically try to 
reenergize that broader discussion because it is a national 
discussion; it is not just a military discussion.
    The Chairman. Well, I just think that is very important. 
And there have been some articles written about whether you can 
analogize cyber deterrence with strategic nuclear deterrence. 
And I am not making a point for or against that.
    But the key kind of skills about thinking about what will 
deter an adversary in whatever realm you are talking about is 
something I think we have neglected. And it is encouraging to 
me to hear y'all think that that is getting going again and 
that, as you say, we are catching up.
    Thank you, each of you, for being here today. I think this 
has been helpful.
    And we will thank you ahead of time for the further 
discussions we will have this week and beyond.
    Hearing stands adjourned.
    [Whereupon, at 12:07 p.m., the committee was adjourned.]

      
=======================================================================



                            A P P E N D I X

                             March 8, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 8, 2017

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 8, 2017

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. You stated during the hearing that we ``were not 
entering an arms race because we bilaterally have a verifiable 
inspection regime for the weapons that are deployed. We have capped the 
number of weapons that are available.'' However, is there a risk that a 
nuclear arms race could still occur because the New START Treaty, while 
it imposes caps on launchers, does not impose any limits on the number 
of non-deployed or reserve nuclear weapons? Why/why not?
    General Selva. The New START Treaty caps the number of deployed 
warheads and deployed and non-deployed launchers both sides can 
possess. Thus compliance with New START is preventing either side from 
``racing.'' There is always risk that a nuclear arms race may occur, 
but not because the New START Treaty does not impose any limits on the 
number of non-deployed warheads. For example, Russia could decide to 
breakout from New START limits and continue its ongoing modernization 
program beyond what is allowed under the Treaty. In fact, one of the 
purposes of the U.S. stockpile of non-deployed warheads is to deter 
such a breakout by enabling us to increase our forces as well.
    Mr. Smith. Secretary Work stated before our committee in June 2015, 
``Anyone who thinks they can control escalation through the use of 
nuclear weapons is literally playing with fire'' and ``Escalation is 
escalation, and nuclear use would be the ultimate escalation.'' Do you 
agree, and do you think escalation can be reliably controlled? What are 
the risks that using a lower-yield nuclear weapon would lead to a 
massive nuclear exchange?
    General Selva. As there has thankfully never been a limited nuclear 
exchange, we do not know whether such escalation can be controlled, and 
we cannot know for certain how reliable an effort to control escalation 
might be. The use of any nuclear weapon could lead to a large-scale 
exchange and the prospect of such uncontrolled escalation arguably 
enhances the deterrence of nuclear first use. However, just because we 
do not know for certain whether we can control escalation does not mean 
we should not attempt it if an adversary uses a nuclear weapon in a 
conflict. Were deterrence to fail in a limited way, it would be better 
for the President to have a full range of response options, including 
options to attempt to control further escalation and reestablish 
deterrence.
    Mr. Smith. Given the increasing costs for nuclear weapons 
modernization and the conventional capabilities requirements, could you 
provide a chart to the Committee showing the costs of nuclear weapons 
modernization/recapitalization as a percentage of the DOD acquisition 
budget over the next 10 years and next 25 years?
    General Selva. [See table below.]

 
----------------------------------------------------------------------------------------------------------------
                                                        FYDP (2017-2021) Estimate   10-Year (2017-2026) Estimate
                       Program                                    ($B)                          ($B)
----------------------------------------------------------------------------------------------------------------
COLUMBIA-Class                                        13.2                          43.7
----------------------------------------------------------------------------------------------------------------
Ground Based Strategic Deterrent                       3.4                          13.2
----------------------------------------------------------------------------------------------------------------
Long Range Stand Off                                   2.2                           5.6
----------------------------------------------------------------------------------------------------------------
B-21\1\                                                0.6                           1.9
----------------------------------------------------------------------------------------------------------------
Nuclear Command, Control, and Communications (NC3)    10.7                          20.4
 Investment \2\
----------------------------------------------------------------------------------------------------------------
Notes
1. These amounts represent the nuclear-related costs for the B-21 program which are estimated at 5%.
2. Includes procurement and research, development, test, and evaluation costs.
The Department is still compiling 10-year estimates based on the FY18 budget and cannot offer a 25 year plan.


    Mr. Smith. Secretary Work stated before our committee in June 2015, 
``Anyone who thinks they can control escalation through the use of 
nuclear weapons is literally playing with fire'' and ``Escalation is 
escalation, and nuclear use would be the ultimate escalation.'' Do you 
agree, and do you think escalation can be reliably controlled? What are 
the risks that using a lower-yield nuclear weapon would lead to a 
massive nuclear exchange?
    General Hyten. I agree with Secretary Work in that escalation 
management is a complex concept. In the scenario described, nuclear 
employment has occurred and, as an international community, we are in 
uncharted waters. That is one of the reasons I do not like to use the 
term ``tactical nuclear weapons.'' In my opinion, the employment of any 
nuclear weapon is a strategic decision and will demand a strategic 
response. Although considerable thought has been paid to the theory of 
limited war over more than half a century, there remain considerable 
risks of misperception and misunderstanding leading to miscalculation; 
which is one reason why dialogue with foreign actors, arms control 
agreements, and other mechanisms are so important Again, regardless of 
the yield, any use of a nuclear weapon will have strategic implications
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Are you concerned about the shift in Russian nuclear 
doctrine and potential consequences as a result of such a shift that 
could lower the threshold of using nuclear weapons? How can we increase 
strategic and regional stability, especially in the context of nuclear 
proliferation, modernization, and evolving nuclear doctrines?
    General Selva. Yes, I am concerned about Russian nuclear doctrine 
and the potential it creates for uncontrolled escalation in a crisis. A 
fully modernized U.S. nuclear triad and nonstrategic nuclear forces 
raise Russia's threshold for using nuclear weapons because it ensures 
our ability to respond should Russia seek to escalate its way out of a 
failed conventional conflict. Therefore one way for us to increase 
strategic and regional stability is to continue the nuclear 
modernization program of record to avoid capability gaps that might 
threaten the credibility and effectiveness of our nuclear deterrent. 
Another complementary way would be dialogue with Russia regarding 
strategic stability to reduce the likelihood of misperception and 
miscalculation.
    Mr. Cooper. Should nuclear threat reduction and nuclear 
nonproliferation be considered as part of the discussions related to 
the nuclear posture review? Why/why not?
    General Selva. Yes, I believe the Nuclear Posture Review (NPR) 
should consider aspects of nuclear threat reduction and non-
proliferation because they are important and related national security 
interests. I believe our nuclear deterrence policies, strategies and 
capabilities provide added insurance to achieve U.S. nuclear 
nonproliferation objectives, and are key enablers to reducing threats 
to the United States and our allies from nuclear and WMD-armed 
adversaries.
    Mr. Cooper. Should nuclear threat reduction and nuclear 
nonproliferation be considered as part of the discussions related to 
the nuclear posture review? Why/why not?
    General Hyten. Yes, reducing the threat of nuclear weapon use and 
proliferation are essential elements to determining the adequacy of 
U.S. nuclear forces' ability to deter nuclear attack against the U.S., 
our allies, and our partners Beyond the nuclear posture review, the 
U.S. regularly participates in dialogue with other ``P-5'' members and 
the broader international community to improve understanding of nuclear 
capabilities and reduce the potential for miscalculation Similarly, 
consistent with our treaty obligations, the U.S., along with our allies 
and partners, continue to pursue nuclear non-proliferation policies and 
strategies to reduce escalatory risks and maintain strategic and 
regional stability.
    Mr. Cooper. How could the Department increase the incentives for 
commonality between the Navy and the Air Force while minimizing risks, 
in order to reduce long-term costs for the planned nuclear 
modernization?
    Admiral Moran. The Navy and the Air Force are both addressing the 
challenges of sustaining aging strategic weapon systems in a fiscally 
constrained environment, and are working collaboratively to ensure 
these capabilities are retained in the long-term. We are seeking 
opportunities to leverage technologies and make the best use of scarce 
resources. The Navy and the Air Force assessed whether increasing 
commonality between the GBSD program and the Trident II (D5) life 
extension program could improve affordability while ensuring a safe, 
secure, effective and credible nuclear deterrent, as well as retain 
essential diversity to hedge due to unforeseen technical problems or 
vulnerabilities. The assessment identified some impediments to full 
commonality of major subsystems, like solid rocket motors; however, it 
also identified several D5 life extension candidate processes and 
components that showed promise for application in GBSD development. The 
Navy also expects to leverage, where possible and feasible, Air Force 
ICBM technologies in the longer-term for its own follow-on strategic 
weapon system capability.
    Mr. Cooper. Four years ago, you were faced with bad morale and poor 
leadership in the ICBM missileer ranks and were called on to address 
this problem. What caused the breakdown in leadership? What are the 
milestones for improved morale and leadership?
    General Wilson. In 2014, various internal and external assessments 
identified a number of factors within the Intercontinental Ballistic 
Missile (ICBM) force that had contributed to culture and morale issues. 
Some of the most frequently cited included a culture of perfection and 
micromanagement that had developed, manning and resource constraints 
that led to workarounds outside of accepted procedures, and excessive 
administrative requirements.
    Since 2014, the Air Force has applied deliberate and sustained 
focus to strengthen the ICBM mission as well as the broader nuclear 
enterprise. Our ongoing efforts--spanning the full-range of personnel, 
management, oversight, mission performance, training, testing, and 
investment issues--continue to produce tangible and lasting 
improvements. We have institutionalized a culture of continuous 
improvement and have placed renewed emphasis on establishing effective 
processes to assess and oversee the health of the nuclear enterprise.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. The Congressional Budget Office recently said that 
we're planning to spend ``roughly 6 percent'' of the total defense 
budget on the nuclear deterrence mission over the next 10 years. In 
your professional military judgment, is 6 percent of our defense budget 
an appropriate level of spending for the nuclear deterrence mission--
for what you termed in the hearing the nation's highest priority 
defense mission?
    General Selva. I will re-emphasize that the nuclear deterrent is 
the nation's highest priority defense mission and, as such, needs to be 
funded appropriately. The past sequestration and budget caps have 
negatively impacted the modernization of our nuclear weapon systems and 
infrastructure. We have delayed making investments in modernization 
which has driven our current systems to the end of their service lives. 
Further delays will cause gaps in our capabilities and jeopardize the 
nuclear deterrence mission as well as increase costs later. It is 
imperative that we fund the nuclear deterrence mission now to assure it 
is safe, secure, and effective for years to come.
    Mr. Rogers. The hearing touched on how cruise missiles are cost-
imposing capabilities. We know how hard it is defend against cruise 
missiles. Please describe how LRSO is a cost-imposing capability/
strategy on our adversaries?
    General Selva. LRSO complicates a potential adversary's air defense 
problem by presenting many more small and low-observable penetrators 
than a single bomber with gravity weapons can present on its own. In 
combination with a penetrating bomber, LRSO will significantly reduce a 
potential adversary's ability to achieve sanctuary within his borders.
    Mr. Rogers. The hearing touched on whether dual-capable air-
launched cruise missiles (ALCM) are destabilizing. Does Russia deploy 
such dual-capable ALCMs? How many times has the U.S. fired an ALCM in 
combat and did any adversary ever mistake one of those conventional 
ALCMs for a nuclear one? Do you believe LRSO would be destabilizing--
why or why not?
    General Selva. Russia currently has multiple types of dual-capable 
ALCMs. Russia has Kh-101 (conventional) and Kh-102 (nuclear) subsonic 
cruise missiles that are comparable to U.S. CALCMs and ALCMs. Russia 
also has Kh-32, a dual-capable air-launched supersonic cruise missile 
for which the U.S. has nothing comparable. Of note, the Kh-101 and Kh-
102 have significantly greater range than their U.S. counterparts, and 
Russian press has reported that Kh-101 was launched from Russian 
strategic bombers (Tu-95 and Tu-160) into Syria over the past 6 months. 
The United States has employed over 300 CALCMs in various conflicts 
since 1991, most recently in 2003 in Iraqi Freedom. None have been 
mistaken as nuclear variants. I do not believe LRSO is destabilizing 
because, like the ALCM it is replacing, it does not provide a disarming 
first strike capability.
    Mr. Rogers. Did the Joint Chiefs of Staff examine eliminating LRSO 
during the review of nuclear deterrence last year? Did the Joint Chiefs 
ultimately recommend continuing to pursue LRSO? Why?
    General Selva. As part of the previous Administration's review of 
its nuclear policy last year, the Joint Chiefs of Staff evaluated a 
proposal to defer the current LRSO acquisition program. The Joint 
Chiefs recommended continuing the current program to ensure a 
replacement for the Air-Launched Cruise Missile (ALCM) is available 
before the ALCM ages out. When fielded, LRSO will sustain a nuclear 
standoff capability that the ALCM has provided for decades, and it is a 
critical element of our ability to enhance deterrence by enabling 
credible response options to an adversary's limited or large-scale 
nuclear attack.
    Mr. Rogers. Are there military requirements that the U.S. military 
cannot currently satisfy because we adhere to INF? What are they?
    General Selva. There are no military requirements we cannot 
currently satisfy due to our compliance with the INF Treaty. While 
there is a military requirement to prosecute targets at ranges covered 
by the INF Treaty, those fires do not have to be ground-based. However, 
ground-based systems would increase both the operational flexibility 
and the scale of our intermediate-range strike capabilities. We are 
continually monitoring emerging needs in the face of a rapidly changing 
security environment. If major shifts in the geopolitical landscape 
drive a specific requirement for a ground-based intermediate-range 
strike capability, our compliance with the INF Treaty would restrict 
our ability to field such systems.
    Mr. Rogers. Is there any compelling need to extend the New START 
treaty today? The treaty currently goes to 2021. What are some of the 
considerations that you, in your professional military opinion, believe 
must be addressed in any decision by policymakers to extend this 
treaty?
    General Selva. No, there is no need to extend New START today. It 
is too early to consider extending the Treaty. We are focused this year 
on completing our reductions under the Treaty and ensuring Russia meets 
its obligations by February 2018 when the Treaty's limits go into 
effect. Russia remains in compliance with New START, and I support 
continued implementation. New START continues to provide predictability 
of and transparency into Russia's strategic forces. However, I 
anticipate Russia's violation of its international commitments such as 
the INF Treaty will be a consideration in any future arms control 
discussions.
    Mr. Rogers. Nuclear disarmament advocates are attempting to build 
support for a treaty that would ban nuclear weapons around the world. 
What are the military ramifications if U.S. allies sign such a treaty? 
How might that affect our military, including alliance commitments to 
NATO and the ability to deter and assure in Europe?
    General Selva. If allies sign a treaty to ban nuclear weapons, it 
would undermine long-standing security relationships that have 
underpinned the international security structure in place since the end 
of World War II. Efforts to negotiate such a treaty also seek to 
delegitimize nuclear deterrence, which would be at fundamental odds 
with the extended deterrence guarantees that we provide to allies in 
Europe and Asia. Therefore, if NATO Allies were to sign such a treaty, 
it would undermine longstanding U.S. extended deterrence commitments, 
which are a core element of NATO's deterrence and defense posture.
    Mr. Rogers. Do you believe we should pause or defer development of 
LRSO to wait to see if we can successfully negotiate a treaty banning 
on cruise missiles? In your professional military judgment, do you see 
indications that Russia would negotiate, agree to, and abide by such a 
treaty, given their ongoing violation of the INF Treaty?
    General Selva. No, I do not believe we should pause or defer 
development of LRSO to wait for a successful negotiation of a treaty 
banning cruise missiles. As I stated in my testimony, we are currently 
depending on ``just-in-time'' modernization and replacement of our 
nuclear forces, and that is certainly true of LRSO replacing the aging 
Air-Launched Cruise Missile (ALCM). In my view, there is no chance 
Russia or any of the numerous countries who possess cruise missiles 
would negotiate or agree to such a treaty if the United States did not 
also have a credible and effective cruise missile capability.
    Mr. Rogers. The Congressional Budget Office recently said that 
we're planning to spend ``roughly 6 percent'' of the total defense 
budget on the nuclear deterrence mission over the next 10 years. In 
your professional military judgment, is 6 percent of our defense budget 
an appropriate level of spending for the nuclear deterrence mission--
for what you termed in the hearing the nation's highest priority 
defense mission?
    General Hyten. Yes. Modernization underpins national security and 
will enable the U.S. to defend itself and Allies against existing and 
emerging existential threats. Any further modernization delays will 
result in the loss of deterrent capability. Recapitalization last 
occurred in the 1980s and accounted for 12% of defense spending.
    Mr. Rogers. The hearing touched on how cruise missiles are cost-
imposing capabilities. We know how hard it is defend against cruise 
missiles. Please describe how LRSO is a cost-imposing capability/
strategy on our adversaries?
    General Hyten. The combination of LRSO attributes (ability to 
launch beyond range of adversary defenses, hold large geographical area 
at risk, low observable signature, multi-axis routing, large attack 
packages) severely challenges the effectiveness of even the most 
advanced Integrated Air Defense System (IADS). Huge investments and 
technological advancements in detection, tracking, command and control, 
and area/point defenses are required to challenge LRSO viability.
    Mr. Rogers. The hearing touched on whether dual-capable air-
launched cruise missiles (ALCM) are destabilizing. Does Russia deploy 
such dual-capable ALCMs? How many times has the U.S. fired an ALCM in 
combat and did any adversary ever mistake one of those conventional 
ALCMs for a nuclear one? Do you believe LRSO would be destabilizing--
why or why not?
    General Hyten. Yes, Russia deploys dual capable cruise missiles. 
The United States has launched a total of 369 Conventional Air Launch 
Cruise Missiles (CALCMs) and over 2,000 Tactical Land Attack Missiles 
(TLAMs) in combat since 1987. None have been mischaracterized by an 
adversary as a nuclear ALCM/TLAM-N. I do not believe LRSO is 
destabilizing--nuclear cruise missiles have existed for decades.
    Mr. Rogers. Would you please describe the military requirements 
driving the need for GBSD? What are the military effectiveness and cost 
implications of choosing to life extend the current Minuteman III 
missile fleet and related ground infrastructure, rather than pursue 
GBSD?
    General Hyten. Minuteman availability and effectiveness is 
increasingly challenged due to system and component age-out, asset 
attrition, and facility degradation issues. As Minuteman III has done 
for over 40 years, GBSD will continue to provide a responsive, highly 
reliable, cost effective force as part of a credible strategic 
deterrent capability. GBSD enhances strategic stability by forcing 
potential adversaries to commit a large number of highly accurate 
ballistic missiles and warheads in order to defeat the force. This 
``barrier to entry'' encourages restraint as no adversary could defeat 
GBSD without considering the consequences of a U.S. retaliatory 
response. 2014 GBSD Analysis of Alternatives determined the entire 
Minuteman weapon system, to include the C2 infrastructure, requires 
modernization beginning in 2028 and concluded executing the GBSD 
program is more cost effective than an additional Minuteman life 
extension.
    Mr. Rogers. Where do you see the greatest cost and technical risks 
in the GBSD program? For example, what is your view on the priority of 
possible mobile command and control concepts being considered for GBSD?
    General Hyten. From USSTRATCOM's perspective, the greatest cost and 
technical risk is executing a modernization program that goes beyond 
replacing the missile. GBSD must be a fully integrated weapon system 
spanning flight systems, weapon system command and control, missile 
facilities, and the supporting equipment. The U.S. has not conducted 
this level of work in the ICBM force for several decades and it will 
require years of dedicated work and consistent investment to execute 
the program successfully. USSTRATCOM supports the Air Force's 
integrated weapon system approach which focuses low technical risk 
solutions to deliver the required capabilities as the Minuteman force 
retires. The Technical Maturation and Risk Reduction (TMRR) phase's 
objective is to investigate technologies which reduce development and 
production risk while meeting strategic deterrence requirements. As 
part of this process, the TMRR will examine a full range of options, 
including mobile command and control concepts, to meet our 
requirements.
    Mr. Rogers. We've seen a lot of GBSD acquisition details loaded 
into unclassified acquisition databases run by the Air Force. We all 
know that Russia, China, and others scoop all of that stuff up and 
analyze it intensively. Why is all of this put out in the open? Should 
we reassess what is unclassified in these acquisition documents?
    General Hyten. We share your concerns regarding the amount of 
program information that is available. We need to assess our 
acquisition processes to strike a balance between protecting our 
national security and providing industry the information they need to 
develop our weapon systems while preventing the release of sensitive 
information. We will continue assessing the information we must provide 
to industry while safeguarding our classified information through DOD 
security procedures and safeguards.
    Mr. Rogers. Please explain why we must replace Vietnam-era UH-1N 
``Huey'' helicopters that are currently used to help protect our ICBM 
fields? Is it the case that one of the two security requirements can't 
be met without new helicopters? Should this replacement be pursued with 
all possible speed? Why? When you rescinded your request for forces, 
what was your understanding of the date for issuance of the RFP for 
this program? Has that date shifted?
    General Hyten. The 1960's era UH-1N fleet does not have the 
required speed, range, endurance, payload or survivability to fully 
execute the emergency response mission. USSTRATCOM's rescinding the 
Request For Forces (RFF) was not intended to diminish the need for a 
replacement helicopter, but to support a focused effort on fielding a 
replacement aircraft as soon as possible. At the time of the RFF 
rescission it was my understanding that the Final Request For Proposal 
(RFP) release was to be February 2017. Due to industry feedback a 
second draft RFP was required and a final RFP is expected in summer 
2017. The Air Force plans to award a contract in FY18 that will result 
in delivery of the first operational helicopter in the FY21 timeframe. 
I was very unhappy when the Air Force notified me of the need to 
reissue the RFP. This should be a simple and straight forward 
acquisition. I rescinded the RFF to ensure that the entire community 
was focused on the new helicopter. I will continue to monitor this 
closely.
    Mr. Rogers. At the hearing, you said that ``rough parity is 
actually a good thing'' in deterrence. I agree. In broad terms, how 
does Russia's ability to produce nuclear weapons compare to the U.S. 
capability at this time? Is this disparity in production capacity a 
risk to the United States?
    General Hyten. Russia is assessed to have a significantly greater 
production capacity than the U.S. due to the preservation of a large, 
modernized infrastructure (roughly comparable to Cold War era Soviet 
Union capability). This infrastructure has enabled the continuous 
modernization, expansion, and diversification of Russia's nuclear 
arsenal. The U.S. has moved to a much smaller infrastructure with a 
manufacturing capacity that limits our ability to address, within a 
relevant time-frame component age-out and advancing adversary 
capabilities. Although our nuclear stockpile is safe and secure, the 
disparity in manufacturing capability puts the U.S. at a possible 
future disadvantage from technical risks associated with an aging 
stockpile and geopolitical risks, if Russia were to abandon parity and 
seek to achieve supremacy.
    Mr. Rogers. At the hearing, you said that ``rough parity is 
actually a good thing'' in deterrence. You also said that for non-
strategic nuclear weapons, ``the Russian numbers are huge and our 
numbers are small.'' We also know that Russia operates many different 
types of non-strategic nuclear weapons while the U.S. operates 
essentially one. Is this disparity a risk to the United States?
    General Hyten. The distinction between tactical and strategic 
nuclear weapons is nebulous--anybody that employs a nuclear weapon in 
the world has created a strategic effect--all nuclear weapons are 
strategic. Our current force structure, i.e. the Triad, is sufficient 
to maintain strategic stability and manage the risk you are referring 
to. The disparity between U.S. and Russian non-strategic nuclear 
systems only becomes an issue if our nuclear modernization program is 
not implemented. I am, however, concerned with the recent Russia 
deployment of a ground-launched cruise missile (GLCM) in violation of 
the Intermediate Nuclear Forces (INF) Treaty. We will need to decide, 
as a nation, how to respond. I expect this will be addressed in the 
upcoming Nuclear Posture Review (NPR).
    Mr. Rogers. What are the impacts to the credibility of our nuclear 
deterrent if we see major schedule slips to any of these programs? How 
will such slips be seen by both our allies and our potential 
adversaries?
    General Hyten. All three legs of our TRIAD are serving well beyond 
their planned service life, experiencing age related degradation, with 
replacements characterized as just in time. There is no schedule margin 
remaining for any program slips. Any further delays and/or 
cancellations will result in the loss of deterrent capabilities and 
failure to meet our strategic objectives and extended deterrent 
commitments causing adversaries, allies and partners to doubt the 
credibility of the U.S. deterrent.
    Mr. Rogers. Do you agree with the characterization that we hear 
that our nuclear forces, particularly our ICBMs, are on ``hair trigger 
alert''? Please tell us what open-ocean targeting is and why it is 
important?
    General Hyten. No, our nuclear forces are not on ``hair trigger 
alert.'' Comprehensive and redundant personnel, technical, and 
procedural safeguards preclude the unauthorized use of TRIAD nuclear 
forces. U.S. nuclear forces proactively strive for the utmost safety 
and security standards, to include the practice of ``open-ocean 
targeting.'' Our nuclear command and control system is constantly 
exercised to ensure that only the President, after consultations with 
his senior advisors and military leaders, can authorize any employment 
of our nuclear forces. ``Open-ocean targeting,'' is the practice of 
loading our ICBMs/SLBMs with target coordinates located in open ocean 
areas. The practice of ``Open-ocean targeting,'' was implemented as 
part of the 1994 Moscow declaration with the stated purpose to protect 
the U.S. and Russia from an accidental or unauthorized nuclear strike 
by the other.
    Mr. Rogers. The Congressional Budget Office recently said that 
we're planning to spend ``roughly 6 percent'' of the total defense 
budget on the nuclear deterrence mission over the next 10 years. In 
your professional military judgment, is 6 percent of our defense budget 
an appropriate level of spending for the nuclear deterrence mission--
for what you termed in the hearing the nation's highest priority 
defense mission?
    Admiral Moran. Yes. The 1-2% of the national defense budget for the 
sea based strategic deterrent is appropriate and consistent with what 
our nation previously invested to build both the ``41 for Freedom'' in 
the 1960s and the first nuclear modernization with the OHIO Class in 
the 1980s. Beyond deterring the threat of massive attack on the United 
States, having credible nuclear forces is essential to assuring our 
allies of our extended deterrence commitments, thereby convincing them 
that they don't need to pursue their own nuclear weapons.
    Mr. Rogers. The Congressional Budget Office recently said that 
we're planning to spend ``roughly 6 percent'' of the total defense 
budget on the nuclear deterrence mission over the next 10 years. In 
your professional military judgment, is 6 percent of our defense budget 
an appropriate level of spending for the nuclear deterrence mission--
for what you termed in the hearing the nation's highest priority 
defense mission?
    General Wilson. Making the necessary investments in modernization 
to ensure our nuclear forces remain credible and effective in the years 
ahead is of paramount importance. The level of investment is 
commensurate with the priority the Department of Defense places on this 
mission and its foundational role in our National defense.
    Mr. Rogers. The hearing touched on how cruise missiles are cost-
imposing capabilities. We know how hard it is defend against cruise 
missiles. Please describe how LRSO is a cost-imposing capability/
strategy on our adversaries?
    General Wilson. Developing and deploying defensive systems capable 
of detecting, tracking, and defeating the Long-Range Standoff (LRSO) 
weapon would require a potential adversary to expend significant 
technical and financial resources. This investment in defensive systems 
diminishes the amount of resources a potential adversary can expend on 
the development and fielding of offensive capabilities.
    Mr. Rogers. The hearing touched on whether dual-capable air-
launched cruise missiles (ALCM) are destabilizing. Does Russia deploy 
such dual-capable ALCMs? How many times has the U.S. fired an ALCM in 
combat and did any adversary ever mistake one of those conventional 
ALCMs for a nuclear one? Do you believe LRSO would be destabilizing--
why or why not?
    General Wilson. The Russian Federation possess dual-capable air-
launched cruise missiles.
    Since its first use during Operation Desert Storm in 1991, more 
than 350 conventional air launched cruise missiles (CALCM) have been 
employed by the Air Force in combat. The Air Force is not aware of any 
of these CALCM launches being mistaken for nuclear-armed air launched 
cruise missiles.
    I do not believe the Long-Range Standoff (LRSO) weapon would be 
destabilizing. The U.S. has employed CALCMs in combat for more than 25 
years without strategic miscalculation.
    Mr. Rogers. What are the military effectiveness and cost 
implications of choosing to life extend the current Minuteman III 
missile fleet and related ground infrastructure, rather than pursue 
GBSD?
    General Wilson. Ground Based Strategic Deterrent (GBSD) is the only 
cost-effective solution that will fully meet Combatant Commander 
requirements through 2075. The GBSD program addresses the challenges of 
the future strategic environment that a life-extended Minuteman III (MM 
III) Intercontinental Ballistic Missile cannot and will do so for 
approximately the same cost. MM III was designed and fielded to counter 
1970s-era threats; in the decades since, advancements in adversary 
capabilities have created a significant and growing threat to MM III's 
effectiveness.
    Life extending MM III would not provide combat capability to 2075 
and would also require multiple sub-system recapitalization programs, 
including the flight system (i.e. boosters, propulsion system rocket 
engine, and guidance and control), weapon system command and control, 
and associated physical infrastructure. In some areas, integration of 
remanufactured legacy components would create new and complex 
compatibility issues, lead to higher costs, and fail to provide 
critical capability upgrades. These and other challenges--such as 
obsolescence and age-out of critical subsystems, asset depletion, and 
diminishing manufacturing sources--make GBSD the only cost-effective 
option that will deliver credible and effective combat capability 
through 2075.
    Mr. Rogers. Please describe the process the Air Force used during 
the analysis of alternatives (AOA) for the GBSD program. Did it 
thoroughly examine all options? Did it rigorously follow DOD and CAPE 
guidance on how to conduct an AOA?
    General Wilson. Yes, the Ground Based Strategic Deterrent (GBSD) 
Analysis of Alternatives (AOA) rigorously followed Department of 
Defense processes, was structured in accordance with the Office of Cost 
Assessment & Program Evaluation (CAPE) study guidance and included 
direct Office of the Secretary of Defense (OSD) oversight through a 
Study Advisory Group (SAG) chaired by Acquisition, Technology, and 
Logistics and CAPE senior leadership. The GBSD AOA study team complied 
with all CAPE/DOD guidance as part of the assessment. The GBSD study 
team conducted the AOA based upon CAPE's GBSD AOA Guidance, dated 
August 28, 2013. Furthermore, CAPE provided sufficiency review and 
concurrence for the GBSD AOA on November 10, 2015.
    The AOA explored trade space in performance, schedule, and cost 
across the full range of strategic options to include the impacts of 
not meeting validated GBSD Initial Capability Document requirements. 
The AOA was conducted in two parts: Part one was a basing mode analysis 
with a primary focus on survivability; Part two analyzed the Minuteman 
III (MM III) delivery system and focused on MM III recapitalization or 
replacement. Additionally, Part two assessed the entire range of 
validated gaps against several combinations of missile subsystems, to 
include propulsion (boost and post boost), guidance, navigation and 
control, re-entry systems, including existing and new technologies and 
associated industrial base.
    While the aforementioned options thoroughly examined basing modes 
and delivery systems, the compression of the AOA timeline and funding 
(from 18-months to 10-months) did require additional post-AOA 
assessment of the Nuclear Command and Control (NC2) system to include 
detailed NC2 architecture definition and an industrial base interface 
analysis.
    Mr. Rogers. Is the Air Force looking at pursuing putting new 
engines on the B-52 fleet and leverage third party financing to do 
this? This seems like a smart way to get this done in the near-term 
while making the B-52 much more efficient and military effective for 
the long-term.
    General Wilson. The Air Force is assessing options to re-engine the 
B-52 should it become a funded program.
    Additionally, the Air Force is assessing the potential use of third 
party financing options for the production phase of a re-engine 
program. The initial B-52 re-engine Business Case Analysis (BCA) 
indicates significant benefits with lifetime savings exceeding program 
costs. Payback comes from a variety of engine related expenses; fuel 
only provides 23% of the savings. Several factors contribute to the BCA 
include: escalating engine overhaul and related costs; diminishing 
sources of supply; engine related repair costs; fuel costs; increased 
electrical power needs. New engines would also increase the B-52's 
electrical power generation, which would support future modernization 
efforts.
    The Air Force requested $10 million in the Fiscal Year 2017 
President's Budget (FY17PB) Amendment that was not received. The funds 
were to be used to continue more detailed analysis and pre-acquisition 
planning and preparation for a potential re-engine program. Efforts 
include, but not limited to, analysis of engine data to determine best 
value engines, scoping aircraft integration requirements for engines 
(avionics, structural, electrical), and initial program documentation 
preparation and support. The FY18PB requests $10 million for these 
efforts.
    Mr. Rogers. Do you agree with the characterization that we hear 
that our nuclear forces, particularly our ICBMs, are on ``hair trigger 
alert''? Please tell us what open-ocean targeting is and why it is 
important?
    General Wilson. The assertion that the Nation's Intercontinental 
Ballistic Missiles (ICBM) are on ``hair trigger alert'' is incorrect. 
The Minuteman III ICBM relies on extremely robust and secure command 
and control that ensures only the President can authorize a launch.
    All U.S. ICBMs are targeted day-to-day against areas in the open 
ocean. Prior to launch, ICBMs must to be retargeted from the ocean to 
their land-based targets. The U.S. and Russia agreed to implement this 
confidence building practice in 1994.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. The President has called publicly for a ``build-up'' in 
our nuclear arsenal, claiming we've been ``falling behind'' our 
adversaries. I don't understand what metric he's using to make that 
assessment, and your statements mention nothing about an expansion 
being needed to meet our warfighting and deterrence requirements. Are 
you able to corroborate the President's claim that there's a valid 
requirement for new warheads? Do you have any idea on what he's basing 
his claim?
    General Selva. We are initiating a Nuclear Posture Review at the 
direction of the President. I anticipate this review will consider the 
changes in the global security environment since the previous NPR 
(2010) and assess U.S. nuclear policy, strategy, and capabilities 
against the current and future threat environment. Once the 2017 NPR is 
completed, we will have higher confidence in any recommendations that 
may result in changes to U.S. nuclear policy, strategy, and 
capabilities.
    Ms. Speier. The President has derided the New START Treaty as 
``one-sided'' and a ``bad deal.'' This is in stark contrast to comments 
made last week by Lieutenant General Jack Weinstein, the Air Force 
Deputy Chief of Staff for Strategic Deterrence and Nuclear Integration. 
General Weinstein said that the agreement has been ``good for us.'' He 
further explained that ``The reason you do a treaty is not to cut 
forces but to maintain strategic stability among world powers . . . I 
think there is a huge value with what the New START treaty has 
provided.'' General Selva: Do you agree with General Weinstein? Is the 
Chairman prepared to offer his best military advice on this question to 
the President?
    General Selva. I believe the New START Treaty remains in the 
national security interest of the United States as long as Russia 
complies with its terms. Russia is currently in compliance with New 
START, and I support continued implementation. The Treaty has provided 
transparency, predictability, and stability over the past six years 
since the Treaty entered into force and has helped increase mutual 
confidence. The Chairman is prepared to offer his best military advice 
on this question to the President.
    Ms. Speier. President Obama declared that the greatest threat to 
international security is a terrorist with a nuclear weapon--not a 
state program. From what we can tell so far, President Trump also seems 
to be prioritizing the terrorist threat. Yet we're talking here about 
spending--according to independent estimates--up to a trillion dollars 
over the next several decades on programs that have effectively zero 
value against terrorists. At the same time, I'm concerned that, 
following an intensive international effort during the Obama 
administration to lock down nuclear material that could fall into the 
hands of terrorists, our nuclear nonproliferation and nuclear threat 
reduction programs at the Departments of Energy and Defense will be 
getting short shrift under this administration. Are you prepared to 
recommend to the Secretary and the President a sustained--or even 
increased--level of funding for U.S. Government nuclear 
nonproliferation and threat reduction programs?
    General Selva. I support a continued multifaceted approach to 
countering nuclear proliferation, including adequate funding for the 
nuclear nonproliferation and nuclear threat reduction programs at the 
Departments of Energy and Defense.
    Ms. Speier. The string of problems that led to the 2014 Nuclear 
Enterprise Review are a stunning example of how the Department can 
spend billions on bombers, missiles, and subs--and then have military 
readiness degraded by something incredibly stupid like mass cheating on 
competency examinations, or failing to properly maintain the equipment 
we already have. Can you please provide more details on how you will 
ensure that the fundamentals of maintenance, morale, and management 
don't get lost in the push to modernize?
    Admiral Moran. The Nuclear Deterrent Enterprise Review in 2014 
included an internal and external review and resulting in the 
establishment of the Nuclear Deterrence Enterprise Review Group (NDERG) 
by the Secretary of Defense. The NDERG codified senior leader 
accountability and brought together all the elements of the nuclear 
force into a coherent enterprise. The efforts following the review 
strengthened the oversight and regulatory elements to ensure the 
fundamentals of maintenance, morale, and management are fully supported 
and integrated as we move forward with modernization.
    In addition, the Department of the Navy took the following actions 
to further strengthen the actions we were already taking in oversight 
and management of the Navy's top mission.
    -  The Navy expanded the Nuclear Deterrence Mission Oversight 
Council (NNDMOC) to include support commands and nuclear command, 
control and communications (NC3). The council coordinates Navy nuclear 
weapon activities and provides oversight, operations, personnel, 
policy, and material support. The council meets every two months and is 
updated on various aspects of the Navy's Nuclear Weapons Enterprise.
    -  Strategic Systems Program (SSP) was assigned the responsibility 
as regulatory lead, reporting directly to the Chief of Naval Operations 
(CNO) for the Navy nuclear deterrence mission. SSP performs a 
continuous independent end-to-end assessment, reporting annually to the 
CNO.
    -  Biennially the Navy continues to conduct a comprehensive Navy 
Nuclear Weapons Assessment (NNWA) and reports the results to the Chief 
of Naval Operations. The assessment includes specific site visits and 
inspections to assess compliance with higher level guidance and also 
the fundamentals of maintenance, morale, and management, as well as 
security, safety, operations and facilities.
    Ms. Speier. The President has derided the New START Treaty as 
``one-sided'' and a ``bad deal.'' This is in stark contrast to comments 
made last week by Lieutenant General Jack Weinstein, the Air Force 
Deputy Chief of Staff for Strategic Deterrence and Nuclear Integration. 
General Weinstein said that the agreement has been ``good for us.'' He 
further explained that ``The reason you do a treaty is not to cut 
forces but to maintain strategic stability among world powers . . . I 
think there is a huge value with what the New START treaty has 
provided.'' General Wilson: Do you side with the comments made by your 
Deputy Chief of Staff, or with those by the President?
    General Wilson. The United States has consistently maintained its 
obligations under the New START Treaty. It is a bilateral, verifiable 
agreement that provides the U.S. with some degree of predictability on 
Russia's capabilities and intentions concerning their strategic forces. 
The President recently directed a bottom-up review of the U.S.'s 
nuclear posture, an effort that may include a review of existing 
treaties and agreements.
    Ms. Speier. The string of problems that led to the 2014 Nuclear 
Enterprise Review are a stunning example of how the Department can 
spend billions on bombers, missiles, and subs--and then have military 
readiness degraded by something incredibly stupid like mass cheating on 
competency examinations, or failing to properly maintain the equipment 
we already have. Can you please provide more details on how you will 
ensure that the fundamentals of maintenance, morale, and management 
don't get lost in the push to modernize?
    General Wilson. The Air Force continues to apply deliberate and 
sustained focus towards strengthening the nuclear enterprise. In recent 
years we have implemented major organizational changes and streamlined 
authorities to ensure the nuclear mission receives the focus it 
deserves. We have institutionalized a culture of continuous improvement 
and are developing a comprehensive assessment tool to monitor and 
evaluate the health of the nuclear enterprise. Our goal is for this 
process to enable early identification of issues and elevate them to 
senior leadership before they escalate into problems.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. Given the significant modernization needs of the 
Triad, particularly the deterrent abilities of our ICBMs and our bomber 
fleet, how or why do you assume that fully modernizing the entire Triad 
system is the threshold we need to meet? If we are figuring out the 
best way to modernize our capabilities, shouldn't we focus on how our 
adversaries like Russia, China, and North Korea will arm and develop 
and how we can best counter them?
    General Selva. We work closely with our partners in the 
intelligence community to ensure that the decisions we make on the 
future of our nuclear deterrent are informed by the current and 
projected threat environment. In fact, it is this very uncertainty 
regarding the future, particularly with respect to adversary 
capabilities, that a triad of nuclear forces hedges against. Numerous 
reviews conducted over multiple Administrations have considered whether 
the United States still needs a triad of nuclear forces. Each one 
determined that a nuclear triad of intercontinental ballistic missiles, 
strategic bombers, and submarine-launched ballistic missiles provides 
the most effective deterrent against the only existential threat to our 
Nation, and is therefore essential to our national security. I have 
participated in some of these reviews, and I agree with this 
conclusion.
    Ms. Hanabusa. Given the significant modernization needs of the 
Triad, particularly the deterrent abilities of our ICBMs and our bomber 
fleet, how or why do you assume that fully modernizing the entire Triad 
system is the threshold we need to meet? If we are figuring out the 
best way to modernize our capabilities, shouldn't we focus on how our 
adversaries like Russia, China, and North Korea will arm and develop 
and how we can best counter them?
    General Hyten. Our nuclear modernization program has taken into 
account a range of factors with respect to potential adversary 
developments, not just offensive systems but defensive capabilities as 
well, to ensure the continued effectiveness of our deterrent forces. 
Moreover, because we cannot predict with absolute certainty the 
direction potential adversaries might choose to invest in their nuclear 
weapons programs; we maintain a flexible, responsive, and survivable 
force that can meet a diverse range of threats. Collectively, the 
comprehensive nuclear modernization program ensures an appropriate 
range of options for the President to deter and achieve his objectives 
if deterrence fails.
    Ms. Hanabusa. Given the significant modernization needs of the 
Triad, particularly the deterrent abilities of our ICBMs and our bomber 
fleet, how or why do you assume that fully modernizing the entire Triad 
system is the threshold we need to meet? If we are figuring out the 
best way to modernize our capabilities, shouldn't we focus on how our 
adversaries like Russia, China, and North Korea will arm and develop 
and how we can best counter them?
    Admiral Moran. Our nation's nuclear triad of intercontinental 
ballistic missiles, strategic bombers, and submarine launched ballistic 
missiles are essential to our nation's security because they have been 
proven over time and we assess they will remain a necessary deterrent 
as long as nuclear weapons exist. Sea-based strategic deterrence is the 
Navy's #1 investment priority and is the bedrock of our ability to 
deter aggression by major adversaries and to assure our partners and 
allies. Maintaining our ability to deter threats against the U.S., our 
allies, and partners is critical to our national security and strategy. 
Recommendations for adjustments to the U.S. nuclear force structure and 
stockpile should be addressed after careful consideration of the 
current security environment and potential threats in the pending 
Nuclear Posture Review.
    Ms. Hanabusa. Given the significant modernization needs of the 
Triad, particularly the deterrent abilities of our ICBMs and our bomber 
fleet, how or why do you assume that fully modernizing the entire Triad 
system is the threshold we need to meet? If we are figuring out the 
best way to modernize our capabilities, shouldn't we focus on how our 
adversaries like Russia, China, and North Korea will arm and develop 
and how we can best counter them?
    General Wilson. Sustaining the Triad will best maintain the U.S.'s 
ability to preserve strategic stability, deter major conventional and 
nuclear attack against the homeland or our allies and partners in the 
21st century security environment. Combined, the distinct attributes 
and capabilities of each of the Triad's legs creates valuable 
synergistic deterrence effects that provide superior risk-mitigation 
against geopolitical uncertainty and technical surprise. Multiple 
studies conducted by multiple administrations have shown that the triad 
is the best way to provide an effective nuclear deterrent and assurance 
to our allies. Accordingly, this structure has allowed the U.S. to make 
significant reductions in nuclear force posture over the decades while 
preserving confidence in the reliability, credibility and effectiveness 
of the nuclear force.
    We are not modernizing the Triad to keep parity with modernization 
efforts of other nuclear weapon states. We are modernizing because it 
is long overdue and our capabilities must remain credible and effective 
in the eyes of potential adversaries.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY DR. WENSTRUP
    Dr. Wenstrup. How do developments in foreign nuclear weapon 
programs, or other strategic weapon capabilities, factor into your 
recommendations and military assessments on the future of our nuclear 
deterrent? Specifically:
    a) What developments in foreign programs or actions of foreign 
nations concern you, and how does that factor into your planning and 
programs for the U.S. nuclear deterrent?
    b) Over the long term, when other countries continue to build new 
military nuclear capabilities, will our nuclear deterrent remain 
credible if we don't also continue to improve our nuclear capabilities?
    General Selva. In recent years, Russia has rejected our overtures 
to take the next step in arms control and is in the midst of 
modernizing its entire strategic triad, along with developing new 
nonstrategic nuclear systems and weapons. Russia is also violating the 
Intermediate-Range Nuclear Forces (INF) Treaty and has threatened to 
use nuclear weapons against our NATO Allies. Nuclear weapons have been 
assigned increased prominence in Russian strategy and doctrine. 
Meanwhile, China continues to modernize and increase its nuclear 
forces, and North Korea continues its drive towards a nuclear weapon 
capability that can reach the United States. These threats underscore 
the urgency behind our nuclear modernization program of record, and the 
need to avoid further delays that would have severe impacts on the 
credibility and effectiveness of our nuclear deterrent.
    Dr. Wenstrup. How do developments in foreign nuclear weapon 
programs, or other strategic weapon capabilities, factor into your 
recommendations and military assessments on the future of our nuclear 
deterrent? Specifically:
    a) What developments in foreign programs or actions of foreign 
nations concern you, and how does that factor into your planning and 
programs for the U.S. nuclear deterrent?
    b) Over the long term, when other countries continue to build new 
military nuclear capabilities, will our nuclear deterrent remain 
credible if we don't also continue to improve our nuclear capabilities?
    General Hyten. a) The pursuit of offensive cross-domain and/or 
asymmetric capabilities (cyber, hypersonic, counterspace. . .) designed 
to challenge U.S. national security strategy drive the need to 
continuously evaluate and re-prioritize assumptions within existing 
plans and programs, to include the nuclear deterrent.
    b) The U.S. nuclear deterrent will remain credible if we ensure 
sufficient flexibility, responsiveness, and survivability in the force 
structure. The current, Congressionally-funded modernization program is 
designed to achieve these ends. I anticipate the upcoming NPR will 
provide additional clarity and guidance on this subject.
    Dr. Wenstrup. How do developments in foreign nuclear weapon 
programs, or other strategic weapon capabilities, factor into your 
recommendations and military assessments on the future of our nuclear 
deterrent? Specifically:
    a) What developments in foreign programs or actions of foreign 
nations concern you, and how does that factor into your planning and 
programs for the U.S. nuclear deterrent?
    b) Over the long term, when other countries continue to build new 
military nuclear capabilities, will our nuclear deterrent remain 
credible if we don't also continue to improve our nuclear capabilities?
    Admiral Moran. The assumptions of Russia and other potential 
adversaries now and in the future on nuclear force structures, 
capability developments, and doctrines play a major role in our 
assessments of the current and future threat environment. Our 
assessments directly contribute to the strategy and force structure 
decisions of the future. Maintaining our ability to deter and, if 
deterrence fails, respond to future threats underpins our national 
strategy and is critical to this nation, our allies, and partners 
security. The results of the Nuclear Posture Review will inform any 
recommendations to the existing nuclear TRIAD program of record that 
will ensure our deterrent forces remain credible.
    Dr. Wenstrup. How do developments in foreign nuclear weapon 
programs, or other strategic weapon capabilities, factor into your 
recommendations and military assessments on the future of our nuclear 
deterrent? Specifically:
    a) What developments in foreign programs or actions of foreign 
nations concern you, and how does that factor into your planning and 
programs for the U.S. nuclear deterrent?
    b) Over the long term, when other countries continue to build new 
military nuclear capabilities, will our nuclear deterrent remain 
credible if we don't also continue to improve our nuclear capabilities?
    General Wilson. I am concerned about Russian, Chinese, and North 
Korean military modernization efforts, continued aggression seeking to 
annex international borders or waters, and the increase in ballistic 
missile development from regional actors such as Iran. To maintain a 
credible deterrent against this ever-evolving threat, our planning and 
programs must provide flexible options for the President across the 
entire spectrum of conflict.
    The credibility of our nuclear deterrent relies on the capability 
of our nuclear weapons; our Nation's will to use them; and also the 
perception of potential adversaries regarding our capabilities and 
will.
    Foregoing modernization would send a strong message to potential 
adversaries that we are not serious about maintaining any strategic 
advantage or technological superiority. This will weaken our 
credibility and may incentivize other nations to challenge U.S. 
influence and the ability to operate around the globe. Furthermore, any 
changes in U.S. nuclear force structure directly impacts U.S. 
commitment to our allies.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. Given Russia's threats towards its neighbors, NATO, and 
the United States, its openly discussed doctrine to use nuclear weapons 
early in a conflict to ``de-escalate'' and get the United States to 
back down, its use of ``hybrid warfare'' against neighbors and 
potentially against NATO member states--what are the risks of a 
conflict in Europe involving the U.S. and Russia? What are the risks of 
such a conflict escalating to the use of nuclear weapons? Why has 
Russia adopted such a doctrine?
    General Selva. The risk of a conflict in Europe involving NATO and 
Russia is a function of the credibility of NATO's deterrence posture. 
U.S. and U.K. extended nuclear deterrence guarantees are critically 
important elements of that posture. This posture is designed to help 
convince the Russian leadership that they cannot escalate their way out 
of a failed conventional conflict. Exactly why Russia is pursuing its 
current defense doctrine is uncertain, but I believe it reflects a 
desire to compensate for Russia's perceived conventional inferiority 
vis-a-vis the United States and NATO. The President has directed a 
Nuclear Posture Review to ensure our nuclear policies, strategies, and 
capabilities continue to address an increasingly complex security 
environment.
    Ms. Rosen. Do you believe the U.S. should have parity with Russia 
in terms of numbers or capabilities regarding nuclear weapons? Why? 
What are the differences between U.S. and Russian nuclear force 
structures, sizes, and doctrine? How do they compare to those of other 
nuclear powers?
    General Selva. I believe maintaining rough parity with Russia in 
terms of nuclear capability is the surest way to maintain strategic 
stability. The United States and Russia have each designed their 
nuclear force structure and doctrine to meet their own perceived 
security needs. The Russians tend to rely more heavily on 
intercontinental ballistic missiles and non-strategic nuclear weapons, 
while the United States relies more heavily on submarine-launched 
ballistic missiles. The nuclear forces of the United States and Russia 
remain far larger than those of other nuclear powers.
    Ms. Rosen. What advice would you offer to the Nuclear Posture 
Review that President Trump has tasked Secretary Mattis to carry out? 
What threats, risks, or opportunities have changed since the Obama 
administration's Nuclear Posture Review was written in 2010?
    General Selva. I anticipate the review will consider the changes in 
the global security environment since the previous NPR (2010), and 
assess U.S. nuclear policy, strategy, and capabilities against the 
current and future current threat environment. Once we complete this 
NPR, we will provide informed recommendations on U.S. nuclear policy, 
strategy, and capabilities for the Secretary to present to the 
President for consideration. There have been significant changes in the 
security environment since 2010. Russia has been found in violation of 
the Intermediate-Range Nuclear Forces (INF) Treaty; invaded its 
neighbor, Ukraine; and publicly threatened nuclear use against our NATO 
Allies--all while continuing a comprehensive modernization of its 
nuclear forces. Additionally, China has become increasingly assertive 
in the South China Sea and is also modernizing and expanding its 
nuclear forces. North Korea continues its drive towards a nuclear 
weapon that can reach the United States, and the Iranian ballistic 
missile program, which is not covered under the Joint Comprehensive 
Plan of Action, continues to make progress on weapon systems that 
threaten our allies and partners in the region.
    Ms. Rosen. President Obama indicated that he was willing to further 
reduce U.S. deployed strategic nuclear weapons by up to one-third--to 
around 1,000. The Joint Chiefs of Staff indicated at that time that it 
would support these reductions if they are bilateral and verifiable. Do 
you believe we should pursue such reductions while Russia is in 
violation of the Intermediate-Range Nuclear Forces Treaty and other 
arms control obligations?
    General Selva. We are conducting a Nuclear Posture Review (NPR) 
which will include a review of our nuclear arms control policy. Even if 
the results of the NPR indicate that further reductions are desirable, 
we need to consider Russia's current non-compliance with several arms 
control agreements as well its disregard for other international 
obligations before pursuing new negotiations with Russia. Additionally, 
I would only support an effort to pursue further reductions if the 
resulting agreement was verifiable.
    Ms. Rosen. Given Russia's threats towards its neighbors, NATO, and 
the United States, its openly discussed doctrine to use nuclear weapons 
early in a conflict to ``de-escalate'' and get the United States to 
back down, its use of ``hybrid warfare'' against neighbors and 
potentially against NATO member states--what are the risks of a 
conflict in Europe involving the U.S. and Russia? What are the risks of 
such a conflict escalating to the use of nuclear weapons? Why has 
Russia adopted such a doctrine?
    General Hyten. Russia's aggressive actions towards its neighbors 
and confrontational posture towards NATO have heightened the risk of 
conflict in Europe. U.S. and NATO actions are meant to deter further 
destabilizing Russian behavior and reduce the risk of conflict in 
Europe. Russia's ``escalate to deescalate'' doctrine is based on a 
belief that increasing the costs to an adversary, to include use of 
nuclear weapons, will induce termination of a conflict. Russia's 
assessment of American resolve in such a scenario and Russia's belief 
in its ability to manage escalation dynamics following any nuclear 
employment are deeply flawed.
    Ms. Rosen. Do you believe the U.S. should have parity with Russia 
in terms of numbers or capabilities regarding nuclear weapons? Why? 
What are the differences between U.S. and Russian nuclear force 
structures, sizes, and doctrine? How do they compare to those of other 
nuclear powers?
    General Hyten. I believe there is no distinction between the use of 
tactical and strategic nuclear weapons--anybody who employs a nuclear 
weapon in the world has created a strategic effect. While I acknowledge 
Russia maintains significantly more tactical nuclear weapons, I believe 
we have strategic parity and our current force structure is sufficient 
to maintain strategic stability and manage risk. Russian doctrine 
incorporates a broader range of nuclear employment scenarios, which is 
also expressed through its acquisition of non-strategic and novel 
nuclear weapons--this is the main difference in our doctrine and 
capabilities. Both Russia and the U.S. employ a nuclear Triad. However, 
Russia fields mobile ICBMs and configures their ICBM and SLBM forces 
with multiple warheads. Rough parity exists in the size of strategic 
forces as outlined by New START. Both Russian and U.S. nuclear 
stockpiles are larger than those of other nuclear armed nations
    Ms. Rosen. Please describe the force structure changes the Navy and 
Air Force are making to implement the New START Treaty.
    General Hyten. The Air Force is reducing 450 ICBM silos with 
missile bodies to 400, retaining the 50 empty silos. The Air Force 
reduced the number of nuclear-capable heavy bombers to 60, with 6 
additional bombers for training and maintenance considerations. Each 
SSBN originally configured with 24 SLBM launch tubes now has 20 with 4 
tubes sealed and inoperable.
    Ms. Rosen. What advice would you offer to the Nuclear Posture 
Review that President Trump has tasked Secretary Mattis to carry out? 
What threats, risks, or opportunities have changed since the Obama 
administration's Nuclear Posture Review was written in 2010?
    General Hyten. NPR assumptions and analysis should encompass the 
full range of variables associated with the external threat 
environment, Administration guidance, policy and strategy, the nation's 
industrial might, defense priorities and budget considerations to 
ensure the nation is properly positioned to address any future threat. 
Since 2010, potential adversaries have pursued qualitative 
advancements, quantitative, or both; while also broadening the range of 
scenarios with which they might consider nuclear employment.
    Ms. Rosen. President Obama indicated that he was willing to further 
reduce U.S. deployed strategic nuclear weapons by up to one-third--to 
around 1,000. The Joint Chiefs of Staff indicated at that time that it 
would support these reductions if they are bilateral and verifiable. Do 
you believe we should pursue such reductions while Russia is in 
violation of the Intermediate-Range Nuclear Forces Treaty and other 
arms control obligations?
    General Hyten. Any reductions must be bilateral and fully 
verifiable under transparent treaty inspection regimes. These 
violations are very concerning and must be fully accounted for in any 
future arms control discussions. We will also address them in the 
upcoming Nuclear Posture Review (NPR). A full and deliberative process 
is required to determine whether future strategic arms control 
agreements are in the best interests of the United States
    Ms. Rosen. Given Russia's threats towards its neighbors, NATO, and 
the United States, its openly discussed doctrine to use nuclear weapons 
early in a conflict to ``de-escalate'' and get the United States to 
back down, its use of ``hybrid warfare'' against neighbors and 
potentially against NATO member states--what are the risks of a 
conflict in Europe involving the U.S. and Russia? What are the risks of 
such a conflict escalating to the use of nuclear weapons? Why has 
Russia adopted such a doctrine?
    Admiral Moran. With the recent actions and rhetoric by Russia, the 
potential risk of conflict arguably is at its highest since the end of 
the Cold War. Maintaining our ability to deter this threat and, if 
deterrence fails, respond to Russian action is critical to NATO and the 
U.S. So the assumptions of Russian doctrine, the risks associated with 
their doctrine, and our intelligence assessments of the current and 
future threat environment will be central to a proper understanding of 
the security environment for the upcoming Nuclear Posture Review. The 
results of the NPR will inform a strategy and future force structure 
decisions along with recommendations on how to best address the future 
threat environment.
    Ms. Rosen. Do you believe the U.S. should have parity with Russia 
in terms of numbers or capabilities regarding nuclear weapons? Why? 
What are the differences between U.S. and Russian nuclear force 
structures, sizes, and doctrine? How do they compare to those of other 
nuclear powers?
    Admiral Moran. Russian nuclear forces represent an existential 
threat to the United States. Maintaining the capacity of our nuclear 
arsenal provides the ability to deter this threat against the U.S., our 
allies, and partners is critical to our national security and strategy. 
Therefore, an analysis of Russian or other nuclear powers' force 
structures, capabilities, and doctrines will be a key to understanding 
the threat environment and informing the nuclear force needs in the 
upcoming Nuclear Posture Review.
    Ms. Rosen. Please describe the force structure changes the Navy and 
Air Force are making to implement the New START Treaty.
    Admiral Moran. In accordance with the nuclear force structure 
announced by the Secretary of Defense on April 8, 2014, the Navy has 
been reducing the number of SLBM launchers on SSBNs and warheads on 
deployed SLBMs in order to support U.S. security requirements and New 
START Treaty central limits.
    The number of submarine launched ballistic missile launchers will 
be reduced from 24 to 20 launchers per SSBN, with no more than 240 
deployed SLBMs and 280 deployed and non-deployed SLBM launchers total 
at any time. In addition, the Navy will reduce the overall number of 
deployed SLBM warheads on the OHIO class SSBNs to comply with New START 
Treaty central limits. The Navy is converting launchers pursuant to the 
Treaty so that they are incapable of launching an SLBM.
    The Navy is aligning conversion efforts with the existing OHIO 
Class SSBN operational schedule to minimize the impact to the fleet. As 
of March 2017, conversions have been completed on eleven out of 14 
SSBNs (a total of 44 converted SLBM launchers), and the Navy remains on 
track to complete conversions prior to the February 2018 Treaty 
deadline. Once the New START Treaty limits are achieved in 2018, the 
Navy will responsible for approximately 70% of the U.S. nuclear 
warheads deployed under the New START Treaty.
    Ms. Rosen. What advice would you offer to the Nuclear Posture 
Review that President Trump has tasked Secretary Mattis to carry out? 
What threats, risks, or opportunities have changed since the Obama 
administration's Nuclear Posture Review was written in 2010?
    Admiral Moran. The advice I would offer to the Nuclear Posture 
Review is to ensure a fresh review of the threats and assumptions made 
in the 2010 Nuclear Posture Review and how they have changed. The 
assumptions of adversary force structure, intents, and doctrines should 
be reviewed and if need, adjusted to match the current security 
environment. The review of changes in the underlying security 
environment will be a central aspect of how the next NPR will be 
performed and the conclusions that will be made.
    Ms. Rosen. President Obama indicated that he was willing to further 
reduce U.S. deployed strategic nuclear weapons by up to one-third--to 
around 1,000. The Joint Chiefs of Staff indicated at that time that it 
would support these reductions if they are bilateral and verifiable. Do 
you believe we should pursue such reductions while Russia is in 
violation of the Intermediate-Range Nuclear Forces Treaty and other 
arms control obligations?
    Admiral Moran. Potential continued reductions of nuclear forces 
should only be undertaken after a complete assessment of the current 
security environment, particularly in regards to our nuclear armed 
adversaries. Any future force adjustments based on arms control regimes 
should take into account prior actions, verifiability, and the arms 
control agreements contribution to maintaining strategic stability. 
These things, along with a full intelligence assessment of the present 
and future threat environment will be central to the upcoming Nuclear 
Posture Review. The results of the NPR will inform any decisions on 
adjustments to strategy, force structure, and recommendations on how to 
best address the future threat environment.
    Ms. Rosen. Do you believe the U.S. should have parity with Russia 
in terms of numbers or capabilities regarding nuclear weapons? Why? 
What are the differences between U.S. and Russian nuclear force 
structures, sizes, and doctrine? How do they compare to those of other 
nuclear powers?
    General Wilson. The size and capabilities of U.S. strategic forces 
are a function of National policy and combatant commander requirements. 
Historically, the Air Force has pursued technological advancements to 
win wars and maintain dominance in air, space, and cyber domains.
    The United States and Russia both rely on a nuclear Triad 
consisting of strategic bombers, intercontinental ballistic missiles, 
and submarine launched ballistic missiles. Strategic warheads are 
limited to 1,550 operationally deployed warheads under the New START 
Treaty. However, Russia maintains a stockpile of tactical nuclear 
weapons that is an order of magnitude larger than that of the U.S. and 
NATO. These numbers are troubling--especially considered in light of 
Russia's continued non-compliance with the Intermediate-Range Nuclear 
Forces Treaty.
    Ms. Rosen. Please describe the force structure changes the Navy and 
Air Force are making to implement the New START Treaty.
    General Wilson. To comply with New START Treaty requirements, the 
Air Force converted 29 operational and 12 non-operational B-52H 
strategic bombers to conventional only. In addition, the Air Force 
transitioned 50 Minuteman III intercontinental ballistic missile (ICBM) 
silos to operational non-deployed status, a process that involves 
removing the missile and maintaining the silo in a configuration that 
allows a missile to be reinstalled. Another 103 ICBM silos that were in 
``caretaker'' or inactive test status were also destroyed. The Air 
Force is on track to meet its obligations well in advance of the 
February 5, 2018 Treaty deadline.
    Ms. Rosen. What advice would you offer to the Nuclear Posture 
Review that President Trump has tasked Secretary Mattis to carry out? 
What threats, risks, or opportunities have changed since the Obama 
administration's Nuclear Posture Review was written in 2010?
    General Wilson. The Air Force remains actively engaged and ready to 
support the Nuclear Posture Review (NPR) directed by the President. 
Since the 2010 NPR release, the strategic environment has evolved as a 
result of rapidly advancing technology, geopolitical instability, 
constrained resources, challenges to global commons, and hybrid 
warfare. I believe the U.S. nuclear posture must account for these 
changes to the strategic environment to safeguard the security of our 
Nation now and in the future.
    Ms. Rosen. President Obama indicated that he was willing to further 
reduce U.S. deployed strategic nuclear weapons by up to one-third--to 
around 1,000. The Joint Chiefs of Staff indicated at that time that it 
would support these reductions if they are bilateral and verifiable. Do 
you believe we should pursue such reductions while Russia is in 
violation of the Intermediate-Range Nuclear Forces Treaty and other 
arms control obligations?
    General Wilson. The President has called for a comprehensive review 
of our entire nuclear posture which should take into account the 
totality of current and future threats, strategy, policy, programs, 
readiness postures, infrastructure, nonproliferation and counter 
proliferation objectives, arms control goals, implementation and 
compliance, technology opportunities and the like. I fully support this 
review. The overall assessment of all these considerations should form 
the basis by which we judge the advisability of future strategic 
nuclear weapon reductions with Russia. Thus, I believe it is wise to 
await the results of this review before rendering a decision.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
